<html>
<title> - U.S. POLICY TOWARD A TURBULENT MIDDLE EAST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                          U.S. POLICY TOWARD A
                         TURBULENT MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2018

                               __________

                           Serial No. 115-124

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                               ___________

                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
29-814 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="baddcad5fad9cfc9ced2dfd6ca94d9d5d794">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable David M. Satterfield, Acting Assistant Secretary, 
  Bureau of Near Eastern Affairs, U.S. Department of State.......     5
The Honorable A. Wess Mitchell, Assistant Secretary, Bureau of 
  European and Eurasian Affairs, U.S. Department of State........    14

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable David M. Satterfield: Prepared statement...........     7
The Honorable A. Wess Mitchell: Prepared statement...............    16

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
The Honorable Daniel Donovan, a Representative in Congress from 
  the State of New York: Prepared statement......................    61
Written responses from the Honorable David M. Satterfield to 
  questions submitted for the record by:
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    62
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................    68
  The Honorable Ted Lieu, a Representative in Congress from the 
    State of California..........................................    71

 
                          U.S. POLICY TOWARD A
                         TURBULENT MIDDLE EAST

                              ----------                              


                       WEDNESDAY, APRIL 18, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    In announcing military strikes against Syria last week, the 
President made clear the people of the Middle East must shape 
their own destiny.
    He's right. But that doesn't mean that we don't have vital 
national interests in the region or a reason to promote 
stability, tolerance, and respect for human rights.
    The U.S. and our allies were justified in taking limited 
military action against Bashar al-Assad. We took that action in 
response to his barbaric use of chemical weapons.
    Hopefully, the Syrian dictator gets the message. If not, I 
have no doubt there will be more military strikes. The world 
has enough security challenges without the breakdown of the 
100-year norm against the use of chemical weapons.
    That said, military force cannot be the only means of 
responding to these atrocities. We need a strategy to get a 
political solution, one that moves beyond Assad to secure a 
lasting peace.
    The previous administration did not have one. That's part 
of the reason why we're confronting this crisis today. The 
stakes in Syria are high. This chaos goes far beyond its 
borders, threatening allies and partners.
    And I again commend Ranking Member Engel for his steadfast, 
years-long commitment to addressing this conflict.
    There is no excuse for the Senate's failure to act on the 
Caesar Syria Civilian Protection Act. This bill, passed twice 
unanimously by the House, would make those supporting Assad's 
killing machine, and its barrel bombs and gas attacks, pay a 
real cost.
    The committee also recently passed the No Assistance for 
Assad Act, which prohibits the regime and prohibits its allies 
from profiting from any reconstruction.
    Both these bills would give our diplomats real leverage. If 
the U.S. isn't engaged in the Middle East, Iran will certainly 
take advantage.
    Tehran is already aggressive and capable, as this committee 
has highlighted. The regime is using its bolstered position 
from a windfall of cash from the nuclear deal to help Hezbollah 
amass missiles along Israel's borders.
    They are seeking, obviously, to establish a land bridge 
across Syria to Israel's doorstep and they are moving fighters 
and weapons across that land bridge to new bases on Israel's 
borders.
    This is shoring up Assad, yes, and it is also threatening 
our troops that are fighting ISIS. And remember, Iran is also 
fueling the humanitarian disaster in Yemen with its support for 
the Houthis. Our closest partner in the region, Israel, is 
increasingly threatened by Iranian expansion but so are our 
other U.S. friends and allies in the region.
    The Iran nuclear deal has serious flaws so let me speak to 
this for a moment. This committee has closely examined them. 
The administration is rightly working to address Iran's 
ballistic missiles, to strengthen inspections, and to fix the 
deal's sunset problem.
    The British, the French, and the Germans need to stand with 
us. Meanwhile, the list of the region's other challenges is 
long. Our relationship with NATO ally Turkey is strained as 
never before. Its military offensive against the Kurds in 
Syria, frankly, has benefitted ISIS.
    The Kurdish Syrian Democratic Forces we back now have to 
divert their operations from the offensives they were taking 
against ISIS to defensive actions, defending themselves from 
Turkish military attacks.
    Turkey's increasing engagement with Russia and Iran is very 
concerning.
    In Libya, radical jihadists remain strong. Neighboring 
Egypt is a critical partner in the fight against ISIS and 
should be supported, but its repression of civil society risks 
backfiring, and Hamas terrorists are inciting violence in Gaza.
    As tempting as it is to say enough and retreat to our 
shores, smart, focused, and a determined engagement in the 
Middle East must be our approach. We need to talk strategy with 
the administration today about the Middle East and we 
appreciate them being here with the committee.
    And I will now turn to the ranking member for his comments.
    Mr. Engel. Thank you, Mr. Chairman, for calling this 
hearing. To our witnesses, welcome to the Foreign Affairs 
Committee and thank you for your service.
    Thank you, Mr. Mitchell, for being here today and it's good 
to see you again. I appreciate the excellent work you're doing.
    Ambassador Satterfield, our first work on Syria reaches 
back about 15 years or so, so I appreciate your service as 
well.
    Still, I wish we had a permanent Assistant Secretary in 
place. Nearly 15 months into this administration the White 
House only sent a nomination to the Senate last week.
    Syria has been a larger focus of mine. Many years ago--I 
think it was more than 15--Ileana Ros-Lehtinen and I introduced 
the Syria Accountability Act, which was passed into law with 
bipartisan support.
    So we have a huge number of concerns about the Middle East. 
But today I am going to focus on Syria.
    It's a shame that it takes a chemical weapons attack to 
grab the world's attention when it comes to Syria. After all, 
the vast majority of Assad's \1/2\ million victims didn't meet 
their ends in a chemical attack. It often wasn't sarin or 
chlorine that drove millions more from their homes.
    For those who have lost love ones in these 7 years of 
brutal slaughter, the pain and the grief are no different 
whether they died in a chemical attack or in a hospital that 
was leveled to the ground or in a crowded street when a barrel 
bomb detonated.
    Assad's a murderer, a butcher. His brutality is sickening 
and it goes on every day. Yet, I want to be clear. Assad's most 
recent use of chemical weapons is an abhorrent crime that 
demanded immediate consequences.
    Late last week, the United States, the United Kingdom, and 
France acted together to dole out these consequences. The use 
of the weapons cannot stand and whoever would use them and 
whoever would support those who do cannot go unpunished.
    But I want to be equally clear. If the administration plans 
ongoing military action, Congress must first authorize it or 
prevent it. Even under the most generous interpretation of the 
War Powers Resolution, the 60-day clock started ticking when 
the President notified Congress of the attack.
    Now, if anyone hear feels a sense of deja vu, you're not 
alone. A year ago, we were debating the same issue. Assad uses 
chemical weapons, the United States fires off some missiles, 
but the killing still continues.
    Why is history repeating itself? Mainly because the 
administration seems to have no strategy for dealing with the 
crisis in Syria. That's why regardless of what happens next we 
need to hear from the administration.
    Even if the President intends for last week's air strike to 
be another one-off response, the White House is still past due 
in laying out its strategy for Syria to Congress and the 
American people.
    As part of last year's defense authorization bill, we 
require the White House to come to us with a strategy by 
February 1st. That deadline has come and gone. I hope you'll 
tell us today if the strategy will be sent to Capitol Hill 
without any more delay.
    The incoherence is plain to see. Over the last year, the 
President has publicly disagreed with his top advisors about 
our path forward in Syria and is off-the-cuff remarks about 
leaving Syria and reckless rhetoric have at times emboldened 
Assad.
    Just prior to last year's chemical weapons attack, the 
President said we would have to accept Assad as a fact of life, 
and shortly before the most recent attack the President 
suggested a precipitous withdrawal from Syria.
    Rather than forming the policy that would help to resolve 
this crisis, I feel that the President has only made it worse. 
I am not holding my breath, but I continue to hope that the 
administration will bring us a plan that will push for an end 
to violence that will ease a political transition and that will 
help lay the groundwork for a future for Syria in which Bashar-
al Assad has no role whatsoever.
    This is certainly no easy task and I'd be the first one to 
acknowledge that the previous administration should have done 
more.
    But there are still plenty of good ideas to help craft a 
policy like this. In fact, as the chairman mentioned, I've 
introduced two bills that I think would move us toward those 
goals.
    The Caesar Syria Civilian Protection Act passed the House 
unanimously last year. It started with bipartisan good work, as 
usual, from this committee.
    This bill would crack down on Assad's enablers, namely 
Moscow and Tehran, who serve as lifelines to the barbaric 
regime.
    I have to say after the President personally overrode his 
own administration's plan to sanction Russia for its support of 
Assad, I think this bill is needed now more than ever.
    I hope the Senate will act on it soon. The other bill, as 
the chairman mentioned, is my No Assistance for Assad Act, 
which I introduced with Mr. Kinzinger and which this committee 
voted to advance a few weeks ago.
    This bill would restrict reconstruction funding for any 
area still controlled by Assad. One bill would help end the 
violence now. The other would make sure that when this crisis 
has ended no American tax dollars are going to help Assad cling 
to power.
    We cannot overstate the scope of the tragedy in Syria. 
Assad has the blood of hundreds of thousands of innocent Syrian 
men, women, and children on his hands.
    That this catastrophe has been allowed to go on for so long 
is a global failure that will leave a black mark on this era of 
human history. But we cannot throw up our hands in resignation.
    If America is to remain a leader on the global stage, we 
must continue working to end the bloodshed.
    I again thank our witnesses. I thank the chairman. I look 
forward to hearing how the administration intends to tackle 
this problem and the range of other challenges with which we 
are challenging in the Middle East.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    So this morning we are pleased to welcome David 
Satterfield. He's Acting Assistant Secretary of State for Near 
Eastern Affairs, and Wess Mitchell is Assistant Secretary of 
State for European and Eurasian Affairs.
    Mr. Satterfield served in many senior positions within the 
department including as U.S. Ambassador to Lebanon, as Chief of 
Mission in Cairo, and Deputy Chief of Mission in Iraq.
    Dr. Mitchell, prior to his current position at the State 
Department, was the co-founder and president and CEO of the 
Center for European Policy Analysis and we appreciate them 
being here with us today.
    Without objection, gentlemen, your full prepared statements 
will be made part of the record. Members here will have 5 
calendar days to submit any statements or questions to you or 
any extraneous material for the record.
    So if you would, Mr. Satterfield, please summarize your 
remarks and after the 5 minutes we will go to Mr. Mitchell and 
then to the questions.

    STATEMENT OF THE HONORABLE DAVID M. SATTERFIELD, ACTING 
   ASSISTANT SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Satterfield. Thank you very much, Chairman Royce, 
Ranking Member Engel, members of the committee. I appreciate 
the opportunity for me, my colleague, Assistant Secretary 
Mitchell, to testify.
    From the Arab Spring in 2011 to the current civil wars in 
Syria and Yemen, the rise and fall of ISIS' so-called 
caliphate, no one would argue the many significant challenges 
the United States and our allies face in the region.
    However, I want to say at the beginning in many places the 
U.S. has made positive strides. We are supporting the growth of 
a nascent democracy in Tunisia.
    Economically, the region continues to support and we 
aggressively pursue American opportunities for business that 
generate American jobs.
    We have supported billions of dollars of sales to our 
partners in the Gulf, power generation solutions in Libya, 
Algeria, and Iraq, major sales of locomotives and other power 
sources in Egypt, and we have made significant dramatic 
progress against ISIS.
    However, this said, we are not blind to the continuing 
issues in the region and the U.S. is taking all possible steps 
to find solutions to this region's enduring challenges.
    On April 7th, after weeks of heavy Syrian and Russian 
bombardment on the people of Douma and adjacent areas, the 
regime deployed chemical weapons, killing dozens and injuring 
hundreds of innocent men, women, and children.
    On April 13th, the militaries of the United States, France, 
and the United Kingdom executed strikes on three chemical 
weapons facilities in Syria.
    Russia has failed to live up to its guarantee in regards to 
the 2013 framework agreement that Syria would cease all use of 
chemical weapons and fully declare its entire stockpile for 
verifiable destruction, and Iran acts malignly in Syria and 
through Syria, pouring resources and forces to support Assad 
and advance its regional ambitions including in Lebanon.
    The targeted military action by the U.S., France, and the 
U.K. was a measure to deter and prevent Syria's illegal and 
unacceptable use of chemical weapons.
    This sends, we hope, a positive and powerful message to the 
Syrian regime, Russia, Iran, and the international community 
that chemical weapons will not be tolerated and there will be 
real consequences for their use.
    While preventing the use of chemical weapons in Syria is 
our immediate concern, the administration's priority remains 
the defeat of ISIS. ISIS has lost nearly all of the territory 
it once controlled in Iraq in Syria. But the fight in Syria 
still has to be pursued to its conclusion.
    More broadly, the United States supports a unified and 
territorially whole Syria. This objective is served by U.S. 
support for the U.N.-led Geneva political process established 
by U.N. Security Council Resolution 2254 in which process the 
U.S. believes strongly that representatives of all Syrians 
including all its Kurdish components should fully participate.
    Our strategic partnership with Iraq including the Kurdistan 
region remains essential to ensuring the goal of a lasting 
defeat of ISIS and encountering Iran's malign influence in the 
region.
    The Iraqi Government is stabilizing communities including 
minority communities that suffered greatly from ISIS and now we 
are beginning private sector-led investment-driven 
reconstruction.
    On May 12th, all Iraqis, including Iraqi Kurds, will 
participate in parliamentary elections, the country's fourth 
since 2005.
    Iran's malign influence in the region continues to threaten 
our allies such as Jordan and Israel, and feeds violent 
conflicts in Syria and Yemen through Iran Revolutionary Guard 
Corps facilitation and work.
    The Houthis have repeatedly used in Yemen Iranian ballistic 
missile and cruise missile technology to threaten Saudi Arabia, 
including over 80,000 U.S. citizens in that country.
    U.S. military support for the Saudi-led coalition in Yemen 
serves a clear purpose--to reinforce Saudi and Emirati action 
on behalf of the Yemeni Government in the face of intensified 
Houthi threats and to expand the capability of our Gulf 
partners to push back themselves against Iran's destabilizing 
actions.
    We all agree, as does the Congress, that the humanitarian 
crisis in Yemen is unacceptable. Last month, the Governments of 
Saudi Arabia and the United Arab Emirates provided $1 billion 
to Yemen's humanitarian response appeal, and this complements 
the U.S. Government pledge of $87 million and more than $854 
million contributed since beginning of fiscal year 2017.
    The Iranian regime is taking advantage, as I said, of 
regional conflict and instability to expand its influence and 
threaten its neighbors. We remain focused on neutralizing 
Iran's influence, particularly its support for terror and 
militance, cyber warfare, ballistic missiles, and use of proxy 
forces.
    Mr. Chairman, Ranking Member, members of the committee, the 
Middle East is a complex landscape and the people in the Middle 
East deserve an end to violence, hunger, and uncertainty.
    We are working with our allies inside and outside the 
region to find solutions.
    Thank you for the opportunity to testify and I welcome the 
opportunity to respond to your questions.
    [The prepared statement of Mr. Satterfield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Ambassador Satterfield.
    Dr. Mitchell.

    STATEMENT OF THE HONORABLE A. WESS MITCHELL, ASSISTANT 
   SECRETARY, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Mitchell. Chairman Royce, Ranking Member Engel, 
distinguished members of the committee, thank you for the 
opportunity to appear before you. It's an honor to represent 
the State Department's Bureau of European and Eurasian Affairs 
in this hearing.
    In my comments today, I will focus on the strategic 
dimension of the conflict in Syria as it relates to the work of 
our bureau and, specifically, to the part played by the 
Republic of Turkey and the Russian Federation.
    America's goals in Syria have been to defeat ISIS, to see a 
Syria that is unified and stable emerge from the rubble of this 
conflict, and to prevent Iran, a power that aids and abets 
Hezbollah and that seeks the destruction of the state of 
Israel, from extending its malign influence in the region.
    Let us assess Turkey and Russia as they relate to these 
goals. Turkey is a 66-year member of the NATO Alliance and 
member of the Defeat ISIS Coalition.
    It has suffered more casualties from terrorism than any 
other ally and hosts 3.5 million Syrian refugees. It supports 
the coalition through the use of Incirlik Air Base, through its 
commitment of Turkish military forces against ISIS on the 
ground in Dabiq and Al-Bab, and through close intelligence 
cooperation with the United States and other allies.
    Turkey is publicly committed to a political resolution in 
Syria that accords with U.N. Security Council Resolution 2254.
    Turkey has a vested strategic interest in checking the 
spread of Iranian influence and in having a safe and stable 
border with Syria. Despite these shared interests, Turkey 
lately has increased its engagement with Russia and Iran.
    Ankara has sought to assure us that it sees this 
cooperation as a necessary stepping stone toward progress in 
the Geneva process.
    But the ease with which Turkey brokered arrangements with 
the Russian military to facilitate the launch of its Operation 
Olive Branch in Afrin district, arrangements to which America 
was not privy, is gravely concerning.
    Ankara claims to have agreed to purchase a Russian S-400 
missile system, which could potentially lead to sanctions under 
Section 231 of CAATSA and adversely impact Turkey's 
participation in the F-35 program.
    It is in the American national interest to see Turkey 
remain strategically and politically aligned with the West. Our 
policy has been to combine close engagement with clear 
messaging that the United States will actively defend our 
interests.
    In the context of Syria, we have engaged in high-level 
interagency discussions both to address legitimate Turkish 
security concerns and to avoid inadvertent collisions between 
our forces.
    These conversations are ongoing. Moving forward, our aim is 
to enlist Turkey as a more active ally in supporting the Geneva 
process, the defeat of ISIS, and stabilization in Syria, as 
well as a long-term factor in thwarting expansion by Russia and 
Iran, as outlined in the national security strategy and 
national defense strategy.
    Let us now turn to Russia. It is hard to see how Russia 
shares any of America's strategic goals in Syria. Moscow 
professes a wish to defeat ISIS but directs its bombs at 
fighters and even civilians who oppose the regime, with little 
regard to ISIS.
    It professes to want a stable Syria but subverts the Geneva 
process with separate tracks like the Astana process where it 
dictates the agenda, and Moscow facilitates the spread of 
Iranian influence in Syria and elsewhere in the region.
    Moscow's primary aims in Syria are not really about the 
Syrian people or the stability of the region. Moscow wants to 
retain its presence in Syria as an entry point through which to 
influence future events in the Levant and Eastern 
Mediterranean.
    It wants to inflict a globally visible defeat on the United 
States to create a negative demonstration effect of thwarting 
our aims here to dishearten our friends abroad and to drive 
wedges between us and our allies.
    Moscow is willing to impose catastrophic human costs to 
achieve these goals. Russia has supported the Assad regime's 
indiscriminate attacks and siege tactics on civilian 
neighborhoods, which have killed, wounded, and starved 
thousands of innocent civilians.
    As we have seen in Aleppo and east Ghouta, the Russian 
Government not only supports, but goes to great lengths to 
protect, an Assad regime that uses weaponized chemicals, horrid 
killers like sarin and chlorine, to slaughter men, women, and 
children, even toddlers and infants. Let us remember that.
    We are pushing Russia to be a constructive participant in 
the U.N.-led Geneva process and to bring Assad to the 
negotiating table.
    So far, Russia has ignored these calls and has instead 
chosen to be a spoiler to Geneva. Its reckless intervention in 
Syria and support for the Assad regime has raised the risk of 
confrontation with the West.
    The failed attack on U.S. forces by Russian mercenaries 
recently in Syria was one sobering example of this behavior. 
America has done its part to avoid escalatory spirals.
    We have brokered and maintained deconfliction channels to 
prevent collisions in an increasingly congested and complex 
battle space. Communication between the coalition and the 
Russians helps minimize the risk of miscalculation, 
misunderstanding, or accidental engagement.
    We do not seek a confrontation, but our forces will not 
hesitate to use necessary and proportionate force to defend 
themselves as they are engaged in operations to defeat ISIS.
    Moscow's support for the Syrian regime is intolerable for 
America and all civilized nations. In the days and weeks ahead, 
the United States and our allies will degrade and defeat ISIS, 
support a stable Syria, and limit the spread of Iranian malign 
influence.
    We will work with NATO ally, Turkey, to more fully advance 
these endeavors and push the Russian Government to desist in 
supporting a hateful regime that kills civilians and bring a 
speedy political resolution to this horrible conflict.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Mitchell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Dr. Mitchell.
    You know, our delegations have met in many of the capitals 
across the Middle East with government that raised this same 
concern about the crescent that Iran is pushing now through 
Syria, through Iraq, up to Lebanon.
    And this question we get a lot--is this going to allow Iran 
to threaten Jordan, to threaten Israel? Will it mean the end of 
an independent Lebanon? What will it mean to the other 
partners, allies in the region? What's the strategy?
    What's the strategy, especially in Syria? And also in Iraq, 
I guess, but what is to be done to prevent the consolidation of 
that land bridge, as I said in my opening statement, from which 
we see the transfer now of these heavy weapons, of these 
missiles, of fighters coming right up to the Israeli border, 
right up, Lebanon now is called into question in terms of their 
ability to be an independent state.
    So I want to ask you about that strategy, and given that 
Hezbollah is Iran's primary terrorist proxy, why have we not 
seen more designations of Hezbollah front companies, 
particularly in the construction sector, which I think would 
set them back?
    Ambassador.
    Mr. Satterfield. Mr. Chairman, we certainly agree that Iran 
today is a real and imminent threat to our allies in the 
region, including Israel and Jordan.
    With respect to the strategy to deal with that threat, the 
first priority for the administration was the elimination of 
the challenge posed to all the states in the region and to any 
effort to constrain Iranian expansion and aggression posed by 
ISIS and its so-called caliphate.
    Now, that goal in Iraq has been accomplished and the 
campaign there is focused on what we might call 
counterterrorism efforts rather than an outright military 
campaign.
    In Syria, as I noted in my opening remarks, the challenge 
does remain. While ISIS' caliphate has been dramatically 
reduced in terms of geographic scope and numbers, there is a 
remnant element up against the Iraqi border in the eastern 
Euphrates Valley that still has to be confronted and destroyed 
as we are confident it can and will be.
    But the challenge posed by Iran, the challenges posed by 
the connection that you note, from Iran, Iraq, Syria, to 
Lebanon has to be dealt with.
    We have been working assiduously in strengthening Iraqi 
forces in their ability to control the border with Syria. We 
have been working as well in northeast Syria where our forces 
are present in ensuring that trade of illicit nature across 
that border is constrained.
    But there needs to be continued approach by all of the 
countries in the region with the United States to what is a 
common threat not just to the U.S. and our interests, not just 
to Jordan and Israel alone, but to the Gulf as well by Iran's 
hegemonistic ambitions and proliferation and we are working on 
mobilizing.
    Chairman Royce. Well, it seems to me--if I could just 
return to the dialogue that I think we all need to have on 
this--there has to be a strategy with respect to Syria about 
how we are going to deploy additional sanctions, diplomacy in 
terms of an effort to get a political solution, how we are 
going to perhaps put in safe zones and then expand those zones 
to protect those on the ground who are allies right now 
fighting ISIS that, obviously, will be targets of Assad.
    There needs to be a comprehensive strategy here laid out by 
the administration for Congress in terms of the options to 
pursue because of the urgency and also because of the fact that 
some of the initiatives we've taken here.
    We need Engel's Caesar Syria Civilian Protection Act, as I 
said, which has unanimous support in the House. It would impose 
real costs on Assad and his backers for these war crimes and 
those backers--those backers are Iran and Russia.
    The administration has said on multiple occasions that 
Russia and Iran are complicit in Assad's chemical weapons 
attacks. So I would just ask another question here: Does the 
administration support imposing costs on the Russians and the 
Iranians for their role in the Assad regime's war crimes 
against its own people?
    Mr. Satterfield. Mr. Chairman, the administration has taken 
steps with respect to both Iran, Iranian-supported proxy 
forces, notably, Hezbollah, and with respect to Russia for 
engagement vicariously in the kind of proliferation, criminal 
behaviors, and actions both in Syrian and outside Syria that 
you reference, and we will continue to act aggressively to use 
the authorities available to us to that end.
    Chairman Royce. One area that I think is--if I could just 
close here--I hope that the Senate, with a lot of pressure from 
the administration and us, will move quickly on the Caesar 
Syrian Civilian Protection Act in order to put this into law, 
and I think that that will help protect Syrian civilians but 
also help lay out a strategy.
    Thank you, and I go to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. I concur with all your 
remarks and your questions.
    I want to just say that when Secretary Tillerson outlined 
the administration's intentions in Syria in his speech at the 
Hoover Institution, as the chairman mentioned, he laid out a 
whole list of goals, and I just hope that those goals remain 
goals that we are trying to move forward with.
    The problem is while ISIS is, obviously, the worst of the 
worst, the way I looked at Syria and still do is that our goal 
should not have been only the defeat of ISIS. That should have 
been one of our goals but should not have been the only goal.
    I really think that the defeat of Assad was a parallel goal 
and should have had the priority that it had and, 
unfortunately, I think under both the two administrations it 
really hasn't been.
    Assad is just a butcher and a murderer and it just breaks 
my heart that we didn't offer support to the Syrian people when 
they needed it the most.
    The Wall Street Journal reported this week that the 
administration was looking to set up an Arab force to take the 
place of U.S. troops in Syria.
    So let me ask either of you some questions. Who would 
contribute fighters to this force? How would the transition 
take place? Who would train the fighters? Would the United 
States continue to have some holding force? To what extent is 
this feasible, considering how thin the region is?
    Spread in Yemen, would Egypt send fighters to Syrian areas 
not controlled by Assad? Would the United State continue to 
provide air cover? How effective would these fighters be, 
considering we haven't seen these forces be effective in Yemen 
or the Sinai?
    Those are just some questions about this. Can either one of 
you tell me about this Arab force and how much have we thought 
this out?
    Mr. Satterfield. Ranking Member Engel, the President has 
made clear he wishes to see the U.S. continue and complete the 
campaign against ISIS in northeast Syria.
    The President has also made clear he believes that regional 
and local forces need to take on this struggle as they 
themselves are directly exposed to the consequences of the 
resurgence of ISIS.
    Therefore, we are reaching out to partners across the 
region to see what form of contribution, and not just 
financial, they may make to sustaining this fight beyond the 
destruction of ISIS.
    Mr. Engel. You see, while I agree with everything you have 
said, Ambassador, to me, ISIS is one prong of something--an 
important prong, but one prong of what we should be doing, and 
I really think to rid Syria of the butcher Assad ought to be as 
important as the--as our ISIS concerns.
    Mr. Satterfield. I strongly agree with you that a Syria in 
which Assad remains as leader--this regime--is not a Syria 
which we would predict to be meaningfully secure or stable or 
not a source of generation threat and violent extremism under 
whatever name in the future and it's why we have strongly 
supported a political process led by the U.N.
    Unfortunately, that political process has been blocked and 
the parties responsible for blocking it are quite clear it's 
the Syrian regime itself and the Russians who, through their 
absence of pressure on the regime in Damascus, contributes to 
enables this freezing of a Geneva process which virtually the 
entire international community supports.
    Mr. Engel. And through their veto in the United Nations.
    Mr. Satterfield. Exactly, sir.
    Mr. Engel. Is the State Department satisfied with the 
current communication channels in place with Russia to 
deconflict issues in Syria?
    Since Russia became militarily engaged in Syria, they've 
relied extensively on resupply by air. These flights, both 
military and chartered civil flights, cross the airspace of 
many of our partners including Georgia and Iraq.
    What discussions has the U.S. had with our partners about 
closing their respective air space to such Russian flights?
    Mr. Satterfield. Ranking Member, our discussions in the 
deconfliction channel, which is quite robust with Russia, have 
focused on deconfliction of forces on the ground, in the air in 
Syria, but not on the broader areas that you touch on.
    Mr. Engel. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We got to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce. 
Welcome to our panelists.
    I am hoping to get some clarification from the State 
Department on the current status of the PLO office. As we know, 
it is unlawful for the PLO to maintain an office in the United 
States.
    But for decades, the executive branch has had waiver 
authority to allow the office in DC to remain open. This waiver 
must be renewed every 6 months, and last November the 
administration allowed the waiver to lapse.
    The administration then had 90 days to issue a secondary 
waiver to allow the PLO office to remain open. That deadline 
passed in February and no waiver of any kind has been issued 
since.
    Interestingly, however, the administration issued its PLO 
commitments compliance report just last week, stating, as it 
always does, that the PLO has not lived up to its commitments.
    We sanctioned it by downgrading the status of the PLO 
office, then immediately waived that sanction in the interests 
of so-called national security, which is used so often.
    So my questions are under what authority is the PLO office 
currently remaining open? Why has it not been closed in 
accordance with the law? And I expect to hear that State 
believes this 90-day period for the secondary waiver starts the 
clock and is not the deadline.
    In other words, this waiver exists in perpetuity. The 
administration will never have to issue that secondary waiver 
and the PLO office will never have to close despite the 
underlying law--is that your interpretation?
    Mr. Satterfield. I would be happy and I think it would be 
quite useful to provide to you a detailed written response on 
the different aspects of the question. But I can give you a 
broad overall summary.
    In consultation with the Department of Justice, which has 
the direct authority in interpreting the consequences of the 
failure to waive originally, we have allowed the office to 
remain not open in a formal status as has been downgraded, but 
to remain able to communicate in support of peace negotiations.
    Ms. Ros-Lehtinen. Are there such peace negotiations 
underway?
    Mr. Satterfield. We believe the continued purposes of the 
office meet that requirement. But, again, I would like to 
provide you with a detailed response to the different aspects 
of the questions you asked.
    Ms. Ros-Lehtinen. Well, I look forward to conversing later 
with you and receiving that correspondence.
    Mr. Satterfield. Happy to.
    Ms. Ros-Lehtinen. Because I am really interested about the 
authority under which it remains open. It seems to me that it's 
very unlawful.
    But moving to Lebanon, there are elections in just a few 
weeks in which Iran and Hezbollah will manage to maintain their 
position, probably strengthen it, and Secretary Tillerson has 
said that we have to recognize the reality that Hezbollah is 
part of the political process in Lebanon.
    Could you unpack that for us, explain State's position and 
interaction with Hezbollah? Do we have the same position in 
regards to Hezbollah and the Lebanese Armed Forces?
    Thank you. Thank you to both.
    Mr. Satterfield. We regard Hezbollah as a terrorist 
organization. We both designate members of Hezbollah and those 
associated with Hezbollah's support as well as entities that 
are involved with Hezbollah.
    That hasn't changed. That remains and is vigorously 
pursued. With respect to the Lebanese elections, we certainly 
support a free and fair election in Lebanon.
    With respect to the outcome you will understand I don't 
want to prejudice by my comments those outcomes. But I would 
say, broadly speaking, we do not see the likelihood of a 
dramatic change in the political constellation--the balance 
that marks Lebanese electoral politics or the National Assembly 
today.
    With regard to the Lebanese Armed Forces and Hezbollah, I 
do want to be clear. The United States has provided exceptional 
support for the Lebanese Armed Forces in recent years and not 
just financial support.
    It's not simply a dollars and sense issue. We have 
personnel working closely with and in the Lebanese Armed 
Forces. This gives us an insight and a view into how those 
forces function that we've never had in the past and I can say 
here on the record we do not believe that the Lebanese Armed 
Forces are anything other than a legitimate institution of the 
Lebanese state, and I would note that in strengthening that 
legitimate institution you effectively counter the illegitimate 
security structures, militias, principally Hezbollah, which 
pose a challenge to the state and its authority.
    Ms. Ros-Lehtinen. Thank you very much for a thorough 
answer, Mr. Ambassador, and I echo the chairman's desire to see 
more designation and sanctioning of Hezbollah affiliates.
    Thank you so much, Mr. Chairman.
    Chairman Royce. And we go now to Brad Sherman of 
California.
    Mr. Sherman. Take a breather. I've got about 3 minutes 
where I will preview questions for the record. You can answer 
those later, then I will have some questions for you to respond 
to orally.
    First, when are you going to fill all the important 
positions at the State Department? As the ranking member 
pointed out, that's critical.
    As to Qatar, they have diplomatic contacts with Hamas and 
the Taliban. So do we. They have media that some people accuse 
of being pro-terrorist. So do we. So does Israel.
    The real question here is does Qatar currently give money 
to terrorist organizations or allow its citizens to do so.
    Saudi Arabia wants a nuclear program, wants a nuclear 
cooperation agreement with the United States. Just because 
Saudi Arabia is anti-Iran does not mean they've embraced the 
values of Jeffersonian democracy.
    I don't think a nuclear weapon in Saudi Arabia brings us 
closer to peace. I met the Crown Prince. Many are impressed by 
the Crown Prince. But many were impressed by the Shah of Iran 
in 1979 and by 1980 all the weapons he had acquired were in the 
hands of the Islamic Republic.
    So my question is, what are we doing to prevent Saudi 
Arabia from engaging in enrichment or reprocessing of fissile 
material?
    Japan benefits from the U.S. defense umbrella. It seeks a 
veto over the terms of any deal we make with North Korea. Is 
Japan contributing sufficiently to the enormous financial costs 
that we face in the Middle East?
    Next, Turkey--should it continue to enjoy the faster review 
period for arms exports that we give to other NATO countries, 
given that it is, at best, the least pro-American NATO member?
    Syria--we have three objectives there: Defeat ISIS and 
enforce the chemical warfare convention--those are two 
objectives that we seem to have a reasonable strategy for.
    Our third objective is to help the Syrian people live in 
safety, peace, and with good governance. Congress has proposed 
a strategy here. We had bills passed through this committee. 
But does the administration have a strategy or is this 
something we simply can't achieve at a cost the American people 
will accept?
    Second as to Syria, assuming Assad is in power even 2 or 3 
years from now, why shouldn't we allow the Kurds to have 
sovereignty? Why should we insist that they continue to live in 
a country driven by war, Assad, Russia, Iran, Hezbollah?
    Iran--here I will actually have a quesiton--the argument is 
that we should renounce the JCPOA because, well, Obama 
negotiated and it was bad then so it should cease to exist now.
    The question is really what is the legal effect of voiding 
the JCPOA. Well, the legal effect on Iran is that they're now 
entitled to start enriching.
    The legal effect on Russia is they are the custodian of the 
many bombs worth of fissile material that Iran turned over when 
they got their money at the beginning of the JCPOA and Putin 
could say, well, if the deal is void I am returning the fissile 
material to Iran.
    And third--and this is thought to be the good part--if the 
JCPOA fails to exist, then the United States and its allies are 
free to start new sanctions on Iran.
    So the question is, is that good part of renunciation 
illusory. John Kerry sat exactly where you're sitting now, 
Ambassador, and told this committee that even after the JCPOA 
we can adopt harsh sanctions on Iran, anything, as long as it's 
proportionate to Iran's wrongdoing outside the nuclear arena.
    Well, Iran helps Hezbollah, Hamas, and the Houthis, and 
those are just the terrorist organizations that start with the 
letter H.
    So the question is does voiding the JCPOA or taking an 
action that Putin and Tehran could claim is voiding the JCPOA 
just play into their hands, giving them legal rights--and 
should we instead just sanction them proportionate to their 
nonnuclear evil?
    Mr. Satterfield. Mr. Sherman, excellent questions for the 
record and we'll respond to you in detail on all of those.
    With respect to your last question, it is the intent of the 
administration at this moment to fix the JCPOA. Those 
diplomatic efforts are underway quite actively with our key 
European partners. We hope they produce a successful result. 
That's our focus at the moment, nothing else.
    Chairman Royce. The gentleman's time is expired.
    We go to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman, for convening 
this very important hearing and welcome to Ambassador 
Satterfield and Dr. Mitchell. Thank you for your extraordinary 
service and leadership.
    I would also like to just note that Nick Rahall, former 
Member of Congress from West Virginia, a very distinguished 
member, is here with us and it's great to see him again.
    Let me just ask a few questions--at least five. I have many 
more but I won't allow more than that.
    On Monday, American Pastor Andrew Brunson endured a 12-
hour-long hearing on the groundless terrorism charges he faced 
with our Ambassador-at-Large for religious freedom. Sam 
Brownback in attendance as well as Senator Thom Tillis.
    At the end of the hearing, he was remanded in custody until 
his next court date in May. Is it the opinion of the department 
that somehow diplomacy will effectuate his release or is it 
time, when taken together with all the other religious 
repression that Erdogan is practising and other Turkish leaders 
have done previous, to look at Turkey as a CPC (country of 
particular concern) pursuant to the IRFA legislation?
    Second, in 2004, I authored a law to establish a special 
envoy to combat anti-Semitism. Nita Lowey and I just wrote an 
op-ed that has been carried by a number of publications 
appealing to the administration and the incoming Secretary of 
State. We could not get to first base, unfortunately, with 
Secretary Tillerson.
    I met with him. We just could not get him to say, let's do 
it--let's pick. It is congressionally mandated so I do hope 
that very critical position will be filled and filled quickly.
    Third, and just like my good friend Eliot Engel and the 
frustration of the Senate not taking up a bill, H.R. 390, the 
Iraq and Syria Genocide Emergency Humanitarian Relief and 
Accountability Act, which I worked on for 4 years, held 10 
congressional hearings--the Christians were not getting help 
from the previous administration, despite promises to look at 
it.
    I went over there and met with a number of the Christians. 
I know that the Vice President has been--as well as the head of 
USAID, Mark Green, looking at this. Those people need help.
    If it wasn't for the Knights of Columbus and others 
providing upwards of $60 million of private aid, we would have 
had dead children and very sick adults and elderly in--who--you 
know, the Christians who escaped ISIS.
    So, please, that legislation needs to pass. It also has an 
accountability piece so that we can bring charges with facts 
against those who have committed these crimes.
    Fourth, on UNRRA, I just looked at some recent very, very, 
compelling testimony about the anti-Semitism and the anti-
Americanism that's contained in the textbooks.
    We are going to do a hearing on my subcommittee on this 
shortly joint with Ileana Ros-Lehtinen, who has been very, very 
focused on that as well. It's not getting better. It's, 
arguably, getting worse.
    And finally, the cash payments that were made to Iran--the 
Iranian deal, in my opinion, was egregiously flawed on a number 
of fronts anytime, anywhere, all the other reasons.
    But where is that money going? How has it been spent and 
how much? Are we, through that sanctions relief, providing 
assistance to the troops that are being deployed to Syria?
    Hezbollah is getting money, we know, from Iran. Is that 
part of the sanctions relief money? If you could answer those 
questions I would be deeply appreciative.
    Mr. Mitchell. Congressman, thank you for those questions, 
and you have raised some very important issues. Let me quickly 
deal with two of the issues that you have raised.
    First of all, Pastor Brunson--this is a matter of 
considerable focus and concern for the State Department and 
from my bureau, from me personally.
    I visited with Pastor Brunson's wife, Noreen, in Ankara not 
long ago. We are in close and continuing touch with Pastor 
Brunson, with his family members, and with the Turkish 
Government.
    There was a hearing on Monday. Senator Tillis was there and 
so was Ambassador Brownback. I would just say this: The Turks 
claim to have a very high standard of justice. The indictment 
suggests otherwise. The claims in the indictment were 
laughable. This is clearly an innocent man.
    We are watching to see if the Turks adhere to their stated 
standards of justice. If that does not happen, we are 
considering options for consequences.
    We are in close coordination, in touch with the Senate and 
the House in talking through some of those possible measures. 
But I want to underscore that we take it very seriously.
    Secondly, on Holocaust issues, anti-Semitism is a growing 
problem throughout many parts of Europe. The Office of 
Holocaust Issues is housed in our bureau--European Affairs.
    I established for our team, when I came into my job, that 
this would be a very high priority for us. I don't have 
anything--any comments to make at this time about the role that 
you have mentioned.
    I will simply say that that matter is under consideration.
    Mr. Satterfield. With respect to assistance to the 
Christian and other minority communities in the Nineveh Plains, 
this is indeed, as you noted, an object of special focus for 
the administration.
    The Vice President has led on this effort and we continue 
to engage. As you know, I believe, we have provided 
extraordinary assistance beyond that previously or generally 
allocated for the communities of Iraq specifically for the 
purpose of assisting these communities and we see this as a 
very positive direction.
    On UNRRA, again, the President has made very clear that we 
are examining quite closely every dollar of taxpayer money that 
has been or may be expended for the purposes of support of 
UNRRA, and at present, the administration does not have plans 
for any additional funding.
    We will review that issue based upon that careful 
consideration of where the moneys are going, what other support 
exists for UNRRA amongst regional parties, international 
parties, and the purposes for which it goes.
    Finally, on the JCPOA and the specific question you posed 
on money, I would like to be able to respond to your question 
in a different format, not here in an open session.
    But we can get you responses to your question.
    Mr. Smith. I appreciate that. Thank you.
    Chairman Royce. We go now to Mr. Greg Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Ambassador, let me just follow up on that dealing with the 
JCPOA, real quick, in your last response to Mr. Sherman.
    I, as the ranking member, I've talked to a lot of the E3. 
I've talked to folks about our allies in the military, in 
Israel, et cetera.
    They've all come back and said to me that the JCPOA, for 
the limited purpose of which it was agreed upon, is working--
that--and so they have extreme concerns about us moving out.
    They say for the limited purpose of preventing Iran from 
having a nuclear weapon, given the terms of the agreement, 
they're much better off. They know more about the Iranian 
nuclear program than they've ever known before, et cetera.
    So you said that--what needs to be fixed as far as what 
that purpose is? Can you tell us that?
    Mr. Satterfield. There are three critical deficiencies we 
identify both in the JCPOA, more importantly, in the frame 
around the JCPOA.
    One is the absence of sanctions addressed to Iran's ICBM--
that is, long-range and their continental range ballistic 
missile program.
    The second is the matter of inspection authority for IAEA 
in certain types of institutions in Iran, which are not, in our 
view, adequately laid out, empowered within the JCPOA text.
    And finally, the so-called sunset clauses--that is the 
sunsetting of restrictions on critical elements of the 
enrichment program and enrichment cycle where we wish to see 
essentially through a frame or follow-on agreement to the JCPOA 
and elimination of those sunsets.
    Now, we are engaged in detailed discussions with the E3--
with our critical European partners. Those discussions are 
ongoing, literally, today and we very much hope they come to a 
positive resolution.
    Mr. Meeks. And if they don't?
    Mr. Satterfield. We will address that situation at the 
level of the President. But we are focused now on achieving the 
success.
    Mr. Mitchell. And can I add a point on that, sir, if I may?
    You mentioned our allies, and I can speak a little bit to 
that. I think there is a recognition in Europe and among our 
allies that the problem of Iran is growing in scale, 
specifically the ballistic missile problem, the problem of 
Iran's malign influence across the region. Even in the period 
since JCPOA was brokered, the scale on which Iran is exerting 
its influence across the region has increased considerably. I 
think there's also a recognition that this is a set of problems 
for which Europe should take increased responsibility.
    That's a message that I hear on a regular basis in our 
bureau's interaction with officials from major U.S. allies in 
Europe.
    Mr. Meeks. Are we ready to walk away from our allies and we 
are also talking about part of that agreement is China and 
Russia, and given what's going on with them right now so that 
we are virtually dividing the signatories of the JCPOA.
    And so you say we'll take it up at that time but this was a 
multilateral agreement that, from what I am getting, everyone 
says Iran has not violated and, at the same time, we are in 
about the process of negotiating an agreement with North Korea 
about our word and whether we stand by it or not.
    Mr. Satterfield. Mr. Meeks, I can only reiterate, the 
administration is focused on success here. We are focused on 
obtaining support from our critical allies to cure what we 
regard as significant failures both in the agreement and things 
that were not negotiated at the time of the agreement but now 
pose a real threat.
    And as Assistant Secretary Mitchell said, the dialogue with 
our European allies has been a positive one and we hope it is 
one that leads to a comprehensive resolution.
    Mr. Meeks. I don't know about the policies but the 
President has said something else other than what you have said 
that he's willing to pull out.
    The message we've gotten from the President is that we are 
willing to leave our allies and change what the agreement was 
because I think that's what the concerns of our allies are that 
we are fundamentally changing what the agreement was. And so 
we'll see how it goes and where we'll end up. But I think it's 
a very dangerous situation.
    Chairman Royce. We go now to Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Secretary Mitchell, last month in Kosovo, 
six Turkish nationals were kidnapped and sent back against 
their will to Turkey, where they are imprisoned. They were 
members of the Gulen movement, and it's somewhat of a scandal 
in Kosovo.
    We have in Turkey now is a government that's willing not 
only to oppress its own people which, as we know, has been--
they've been arrested by the thousands but now is projecting 
itself into Europe and conducting itself in instances like I 
just described.
    Quite frankly, the tone of your testimony today was 
certainly not someone that seemed to be alarmed about the 
misdirection of Turkey, and are we going to be giving them 
those F-35s?
    Do you believe that we should continue treating Turkey as 
it evolves into this radical Islamic government and continue to 
treat them as if they were our allies of 10, 15, 20 years ago?
    Mr. Mitchell. Thank you for those questions, sir. Let me 
start with the issue of Kosovo and just say that we followed 
that development very closely.
    It was a very concerning development and we have been in 
touch closely with officials in Kosovo on this matter and 
underscored the importance of the rule of law as it relates to 
matters of extradition. So----
    Mr. Rohrabacher. Have we been in touch with the Turkish on 
this?
    Mr. Mitchell. We are in ongoing conversations with the 
Turkish authorities about a number of matters. With respect to 
Gulen, that is primarily----
    Mr. Rohrabacher. No, no, no, on a number of matters--on the 
Gulen kidnapping of these people in Kosovo, are we now 
confronting the Turks on this?
    Mr. Mitchell. We have raised it in our diplomatic 
conversations. It's primarily a matter for the Department of 
Justice.
    But let me take on the broader question that you raised 
about Turkey because I think it's absolutely essential for 
today's discussion and I do want to be clear.
    We are concerned about the track that Turkey is on both 
with regard to democracy and rule of law and the period since 
the attempted coup, and in a broader geopolitical sense. The 
coordination with Russia and Iran is very concerning. I would 
also say that the track that Erdogan has repeatedly articulated 
publicly, of closer engagement with the Russians on S-400, we 
take this seriously and have prioritized that in our diplomatic 
conversations with the Turks.
    We have been very clear that if a transaction occurs there 
will be consequences under CAATSA, that we will abide by the 
law as articulated in Section 231.
    We've also been very clear with regard to the consequences 
for potential participation in the F-35 program and, more 
broadly, our military industrial cooperation with Turkey.
    Mr. Rohrabacher. Well, I would hope that we also are paying 
attention to the fact that Turkey is involved with radical 
Islamic organizations now. I don't know how deeply. We don't 
know how extensive that is but we do know that it's turned that 
corner and heading in that direction.
    Secretary Satterfield, what is our purpose in Syria? Will 
we accept anything less than--would we accept a compromise that 
would keep Assad in power at least in part of Syria or is our 
goal and our purpose only to totally eliminate the Assad 
government?
    Mr. Satterfield. Mr. Rohrabacher, our purpose of our forces 
in Syria, as Secretary Mattis, Chairman Dunford have stated 
repeatedly, is to defeat ISIS.
    The purpose of our diplomacy of our international 
engagement with respect to Syria is to support a political 
process which, at its end, has a revised constitution, 
elections conducted under the auspices of the United Nations, 
and our belief is that those elections, if freely and fairly 
conducted amongst all Syrians including the emigre Syrian 
communities, would not produce the survival of the Assad 
regime.
    Mr. Rohrabacher. Okay. Well, let me just note, what you 
described wasn't just Syria but probably three-quarters of the 
countries of the Middle East, and if we made those demands, why 
is it that Syria--we have to make those demands against Syria 
and not against all these other countries in the Middle East?
    Mr. Satterfield. Because, sir, of the extraordinary 
depredations of this regime in this country against its 
citizens, because of the extraordinary and historically 
unprecedented in modern times outflow----
    Mr. Rohrabacher. You don't think the rest of the countries 
in the Middle East have similar track records? You're trying to 
tell me that--well, we heard the same thing, of course, about 
Saddam Hussein. We heard the same thing about Qaddafi and we 
end up creating total chaos--total chaos in that part of the 
world.
    Mr. Satterfield. No regime in modern history in the Middle 
East, including Saddam Hussein's----
    Mr. Rohrabacher. Yes.
    Mr. Satterfield [continuing]. Has killed as many of its own 
citizens, has produced external and internal displacement of 
its own citizens on the scale of the Assad regime. No. It's 
unique, sadly.
    Mr. Rohrabacher. Well, let me just say, Mr. Ambassador, you 
read history differently than I do. That is an area that is 
filled with dictators. It's filled with authoritarian regimes, 
filled with our allies that if the people rose up against them 
as they're rising up against Assad--he's a bad guy, he's a 
dictator, he's everything you said--but he's not that different 
from these other regimes. Once they are challenged--once they 
were challenged don't tell me the Qatar Government wouldn't mow 
down all of their guest workers if there was an uprising in 
Qatar, and vice versa, with these other regimes.
    I am very disturbed by the fact that we are sliding into a 
war and not having an out that will not lead us to major 
military commitments to that region. That would be a disaster 
and I think it's based on the analysis that you just said, that 
Assad is somewhat different than everybody else. I don't think 
so.
    Thank you very much, Mr. Assistant Secretary.
    Chairman Royce. We go now to Albio Sires of New Jersey.
    Mr. Sires. Thank you, Chairman, for holding this hearing 
and thank you for being here.
    One of the concerns that I have is the buildup of the 
Iranians as they're getting closer and closer to Israel. I 
mean, they now have 7,000 fighters. Israel lost a plane 
recently.
    This encroachment--how are we going to respond to this? It 
just seems to be getting bigger and bigger, and my concern is 
one day they're just going to try to push even closer.
    Mr. Satterfield. There is no question that the aggressive 
Iranian projection of its influence, forces associated with 
Iran, Iran's Revolutionary Guard Corps directly, and aggressive 
proliferation of advanced systems into Syria and through Syria 
into Lebanon pose a real and, as I said, imminent threat to 
Israel.
    Israel, of course, is taking its own actions to address 
this challenge but, more importantly or as importantly, the 
U.S. and Israel are deeply lashed up, and I mean that in every 
sense of the word, in terms of our own cooperation and 
coordination in trying to better address, more effectively 
address this challenge.
    Mr. Sires. And it seems like Putin wants the Israelis not 
to do any other strikes against this Syrian backed-group. To 
me, Putin has just, again, injected himself in the middle of 
this again.
    Mr. Satterfield. I won't comment on that assertion. Israel 
acts on its own based on its own calculus regarding risk and 
benefit. But I will say this.
    We've made very clear in our dialogue with Russia, and 
we've had an extensive dialogue with Russia on the issue of 
Syria and broader questions including that of Iran and Iran's 
activities for some time.
    We've made the basic question to Moscow, how do you see it 
as in Moscow's interest to entwine yourself with this regime, 
with this Iran, and these Iranian activities.
    We see nothing good in the future for Russia out of this 
and that's a question, unfortunately, which has not been 
adequately responded to.
    Mr. Sires. Thank you.
    Going to Egypt, I note that the North Koreans have their 
Embassy there and I think, through the Embassy, they do a lot 
of arms sales in this part of the world.
    I was wondering what kind of pressure are we asserting to 
make the North Koreans stop there or have the Egyptians stop 
this effort.
    Mr. Satterfield. Former Secretary Tillerson exercised 
authority granted him by the Congress to suspend or withhold, 
rather, $195 million from FMF provided to Egypt and that 
suspension continues.
    There are several conditions, which we have discussed with 
the Egyptian Government at the most senior levels for 
consideration of release of those funds.
    One of those conditions is a downgrading and, in some 
cases, more than a downgrading of the Egyptian diplomatic 
presence in Pyongyang, the North Korean diplomatic presence in 
Cairo, and the general character of that relationship.
    It is absolutely part of a very material discussion with 
the Egyptians.
    Mr. Sires. Thank you.
    And one concern that I have also in Egypt--my time is 
running out--but I have written a number of letters regarding 
the situation with Coptic Christians in Egypt, in terms of 
making sure that they're able to express their religion, making 
sure that they're safe.
    I was wondering what kind of pressure are we putting in 
Egypt now that el-Sisi supposedly got 97 percent of the vote to 
help with this situation.
    Mr. Satterfield. We have had a dialogue with all elements 
of the Egyptian Government, including President el-Sisi 
directly, who received significant support from the Coptic 
community in his reelection with respect to the need for full 
exercise of Coptic Christian rights in Egypt.
    This is, I don't have to tell anyone on this committee, a 
sensitive issue in Egypt but is one we continue to pursue.
    Mr. Sires. I am more concerned about the security of the 
Coptic Christians in this country.
    Mr. Satterfield. That is an issue which President el-Sisi 
himself has repeatedly and publicly expressed as his concern 
and he has, indeed, taken steps to address that particular 
issue--the threat by radical Islamist movements against the 
Copts.
    Mr. Sires. Thank you.
    Thank you, Chairman.
    Chairman Royce. Thank you very much.
    We go to Joe Wilson of South Carolina.
    Mr. Wilson. Thank you very much, Chairman Ed Royce and 
Ranking Member Eliot Engel, for having this important hearing 
on turbulence in the Middle East.
    And first, Dr. Mitchell, I want to thank you for your 
efforts for Pastor Brunson. We appreciate Congressman Chris 
Smith for raising the issue and then I was very pleased to see 
your personal interest as significant and all that can be done 
to address that issue with our NATO ally, Turkey.
    And as we address the topic of turbulence in the Middle 
East--and thank both of you for being here--a concern I've 
always had, how do we identify friendly or democratic allies in 
Syria.
    We have 2,000 troops in Syria. Who are we advising to 
correctly support regime change of the barbaric dictator, 
Assad?
    Mr. Satterfield. The purpose of our military deployment of 
those 2,000 troops in northeast Syria is to conclude the 
campaign to defeat ISIS.
    In that campaign, we have associated ourselves with the 
Syrian democratic forces, a Kurdish and Arabic group in the 
north and northeast who have fought alongside us in this 
campaign.
    We have made very clear the issue of regime change is not a 
purpose of our military deployment. It is the defeat of ISIS. 
The purpose of the international political process in Syria is 
to see the Syrian people, all of them, able to make a choice in 
a free and fair manner to choose the kind of regime, the kind 
of governance they want, and we have said repeatedly we do not 
believe that choice would, in the end, produce a continuation 
of Assad or his regime.
    Mr. Wilson. Well, I want to thank you. That's about the 
best description we've had over the years of being here and 
discussing Syria. So thank you very much.
    And for both of you, the Revolutionary Guard is one of the 
main elements in spreading Iran's malign influence in the 
Middle East, such as in Lebanon and in Syria.
    What specific steps does the administration take to 
diminish the Iranian influence across the Middle East? What is 
the strategy to prevent Iran from filling the vacuums created 
by instability in the region, particularly as ISIS is being 
defeated and withdrawing?
    And how active are the Revolutionary Guards outside of the 
Middle East, where are they active? And then another point 
about Iranian-backed militias, why are they not being 
identified as terrorist organizations?
    Mr. Satterfield. The administration has aggressively 
pursued the sources of IRGC support from a financial standpoint 
and material standpoint, has designated members of the 
Revolutionary Guard Corps for their involvement in terrorist 
activities.
    That step by this administration was quite unprecedented, 
as the IRGC is an entity of a government, a state.
    It is extremely unusual to sanction it. We have done for 
their involvement in terrorist acts. They are a multifaceted 
multipresent organization not just in Syria and Lebanon but in 
Yemen as well.
    They conduct subversive activities, directly or indirectly, 
in the Persian Gulf. We are dealing with all of these 
challenges.
    Now, how do we do that? Of course, there are sanctions to 
get at the heart, the arteries of support. But more broadly 
speaking, by strengthening legitimate institutions of 
legitimate states, you push back against a vacuum which Iran 
takes advantage of.
    By trying--and Yemen is a particular case here--to bring an 
end to the conflict in Yemen you try to heal or close over the 
cracks, the fissures that Iran quite adroitly exploits to its 
advantage.
    Iran will look like the thief going down a corridor in the 
night for any opportunity to go through a partly opened door, 
an unlocked door, a fully open door.
    We want to close that as much as possible. So it's a broad 
approach to a broad and multifaceted problem.
    Mr. Wilson. And I appreciate too that you are recognizing 
that the IRGC (Iran's Islamic Revolutionary Guard Corps) is 
separate from the Iranian military and so, indeed, acting 
independently but achieving, sadly, such turmoil.
    Additionally, the administration has not yet reinforced 
sanctions on any entities where sanctions were lifted on the 
Iranian nuclear deal.
    What steps is the State Department taking to address Iran's 
illicit activities including support for terrorism, arms 
trafficking, human rights abuses, and ballistic missile 
development?
    Mr. Satterfield. I think the key area or the key sector 
that your question strikes to is in the aviation industry and 
the administration is actively considering what steps would be 
appropriate.
    This is not an easy issue because of the extensive 
involvement of many corporate entities in broad support for 
aviation entities in Iran. We are looking at this very 
carefully. We have reached no decisions.
    Mr. Wilson. Well, we appreciate your service, each of you. 
Thank you very much.
    Chairman Royce. Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman. Thanks to you and 
Ranking Member Engel for ensuring this committee has the 
opportunity to engage with the administration in the timely 
manner on recent events in the Middle East.
    I would like to echo my colleagues in voicing our concern 
with continued vacancies in key leadership positions at the 
department. I hope that Director Pompeo moves quickly to fill 
those roles.
    Ambassador Satterfield, we know and we firmly believe that 
you are more than capable of performing the job as Assistant 
Secretary.
    This is in no way a criticism of your abilities. But we are 
15 months into this administration and there is still no 
confirmed Assistant Secretary for the Middle East.
    I would also like to associate myself with the ranking 
member's comments on the international affairs budget. We are 
deeply grateful to our civil and Foreign Service personnel to 
commit themselves to doing work that is sometimes dangerous, 
that keeps them away from their families, and that doesn't get 
a whole lot of credit from the American people.
    But diplomacy and foreign aid is immeasurably critical to 
our national security. Military might is not something that can 
be exercised in the absence of diplomacy. The two must work 
hand in hand.
    Before I ask my questions, I would also implore both of you 
to make the return of Americans held in Iran, particularly my 
constituent, Robert Levinson--the longest held American 
hostage--a serious priority.
    Even if the President potentially disengages from Iran, we 
cannot allow whatever decision is made on the nuclear file to 
impact our efforts to bring Bob home to his family.
    I would ask for the commitment of both of you to make that 
a priority and to engage as much as possible with the Levinson 
family.
    And finally, before turning to my questions, I would just 
like to respond to my colleague who suggested that Assad is 
doing what any leader in the region would do.
    The answer to that is no. We must be horrified and furious 
about the butcher who drops barrel bombs on schools and 
hospitals, who uses chemical weapons against civilians.
    The slaughter of over \1/2\ million people shocks our 
conscience in Syria as it would and must shock our conscience 
in any other country in the region or in any place on this 
planet.
    Now, I have many concerns about the administration's lack 
of cohesive and coherent foreign policy in the region. I am 
confused, to say the least, that the administration seems to be 
actively pursuing Middle East peace, bolstering our relations 
with Israel, acknowledging the reality that yes, Jerusalem is 
indeed the capital of Israel while at the same time seemingly 
leaving Israel the fend for itself by taking real kinetic 
action when it comes to the Iranian presence in Syria.
    The administration has been reluctant to confront Russia in 
a range of areas but particularly for its enabling of Assad and 
its turning a blind eye to Iran and Hezbollah's actions in 
Syria.
    And just when it seems like the administration might 
actually take meaningful steps to sanction Russia for its 
actions in Syria, the President pulls back only after 
Ambassador Haley had made the announcement.
    And to put the blame on her for being confused about the 
policy decision only furthers the disjointed mixed message 
foreign policy this administration has been sending to our 
allies from day one.
    I believe Ambassador Haley when she clearly stated, ``I 
don't get confused.''
    So I would ask you, Ambassador Satterfield, as the 
President is talking tough on Iran with respect to the JCPOA, 
he doesn't appear to be acting tough on Iran in Syria. What's 
the strategy to actually counter Russian and Iran's very real 
and dangerous enabling of Assad, Iran's establishment of bases 
in Syria and support for Hezbollah that threaten to seriously 
destabilize and threaten our allies and the region?
    And specifically--I will try to make this as clear as 
possible--is the United States relying on Russia to influence 
Iran--let's start with that question.
    Mr. Satterfield. First, let me affirm, our efforts in 
support of all of the Americans who have been detained, held 
hostage, missing in Iran, will continue.
    We take these concerns very seriously. We are in touch with 
all the families including the Levinsons, and we'll do all that 
we can to deal with this very difficult and very painful issue.
    Mr. Deutch. Thank you very much.
    Mr. Satterfield. With respect to Iran in Syria, we 
certainly identify the threat and the challenge, not just 
Israel but to the region as a whole, and we have identified 
those concerns not only in our exceptional dialogue with Israel 
and the Israel security----
    Mr. Deutch. Ambassador Satterfield, I apologize. I don't 
wish to be rude. But I just had a few questions.
    So the first one is does the United States rely on Russia 
to influence Iran in the region?
    Mr. Satterfield. We have certainly made clear to Moscow 
that we see no reason, no logic in Moscow enabling either by 
action or inaction what Iran is doing in Syria or elsewhere in 
the region.
    We see it as a threat to Russia over time, yes.
    Mr. Deutch. And if Russia is unwilling or unable to provide 
assurances that the Syrian regime or its associated forces like 
Hezbollah or other Iranian-backed proxy forces will cease 
violence in these areas, what's the next option for the United 
States policy in Syria? What do we do then?
    Mr. Satterfield. With respect to Russia, I will defer to my 
colleague. But we have a variety of means at our disposal which 
are under constant and active consideration to try to bring 
about the kinds of mitigation of harm, mitigation of risk that 
we are all seeking on Syria.
    Those decisions lie, in many cases, with the President 
himself.
    Mr. Mitchell. I would only--thank you for the question, 
sir.
    I think that's a critical issue. I would only add to that 
that in addition to the humanitarian dimension important to the 
strikes, I think a secondary effect was to demonstrate for all 
parties, including the Russian Federation, the seriousness of 
the United States in this conflict.
    I would add that there are measures under consideration 
including measures that stem from CAATSA. Those are under 
ongoing consideration and we will take additional steps against 
the Russian Federation as needed.
    Mr. Deutch. Well, with all due respect, why should we 
believe that when there--it was announced that we were going to 
impose sanctions only to have the President or those close to 
the President essentially throw the U.N. Ambassador under the 
bus, saying that she didn't know what she was doing?
    Why should we believe you when you come here and say that 
we are serious about the possibility of imposing sanctions?
    Mr. Mitchell. Well, the reason you should believe me, sir, 
is that since January of last year this administration has 
implemented sanctions against 189 individuals and entities in 
Russia including 136 under Ukraine authorities and 24 under 
CAATSA authorities.
    So for your--the main part of your question, I would say, 
we have credibility with regard to toughness on Russia.
    Mr. Deutch. Was our credibility threatened at all by the 
interaction over the past few days----
    [Simultaneous speaking.]
    Chairman Royce. If I could make the point--we are over by a 
couple of minutes and--yes. So let's go to Mr. Scott Perry of 
Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman. Thank you, gentlemen.
    I just want to respond a little bit to my friend and 
colleague, who I respect, regarding the administration's 
dealing with Russia.
    The last administration obliterated decades of foreign 
policy that was bipartisan that generally in large part kept 
Russia out of the Middle East and out of meddling there, and 
this administration has been left to pick up the pieces.
    And with regard to leaving Israel, left alone to be the 
only one providing kinetic activity in Syria, I remind the 
gentleman that the last administration provided none except for 
harsh rhetoric while this administration has had rounds 
impacting on the ground in Syria.
    And with that said, I think I want to turn to Dr. Mitchell 
here. Iran provides Hezbollah with approximately $800,000 
annually, trains thousands of their fighters in camps in Iran.
    Hezbollah possess approximately 150,000 missiles. Hezbollah 
provides construction facilities near Israel to produce more of 
these munitions.
    In that context, Hezbollah is--the former Secretary of 
State described Hezbollah as part of the political process in 
Lebanon and we are not--I think we'd be foolish to disregard 
that.
    But I just wonder if there's any concern from State that 
this tends to legitimize a violent theological extremist group 
whose stated goal is to destroy Israel.
    Mr. Satterfield. In no way do we intend to delegitimize 
Hezbollah. In no way do we distinguish between Hezbollah's 
terrorist activities, it's so-called military wing from its so-
called political wing.
    That's a distinction many in the world make. It is one we 
reject completely and have done historically. It's the same.
    Mr. Perry. I want to make sure that there is no--that 
there's a bright line there and----
    Mr. Satterfield. There is.
    Mr. Perry [continuing]. And I appreciate that.
    Let me ask you this, and maybe this for you, Dr. Mitchell, 
if that--I am sorry if I got that wrong.
    The EU seems to resist designated Hezbollah in its entirety 
as a terrorist organization. Even though they are, obviously, 
wreaking havoc in Syria and in Europe as well, what are we 
doing to persuade the EU to designate, to make this 
designation? I think it's important. What are we doing?
    Mr. Mitchell. Well, thank you for that question.
    We engage with our European partners on a regular basis on 
this matter.
    I would say it's fair to say, from the U.S. perspective, we 
have a lot of frustration with the Europeans on this particular 
question of Hezbollah.
    I've been part of conversations where we've talked to the 
French, the Germans, the British, and others. Those are ongoing 
conversations; I think it's part of a broader mosaic.
    Mr. Perry. What is their aversion? What could their 
aversion be?
    Mr. Mitchell. Well, I would refer you to the capitals of 
those countries for the specifics of their concerns. I think--
--
    Mr. Perry. Do you have any inclination? I understand I can 
go ask them, but we are paying you to find these things out for 
us. Do you know what--like, do they see them as not terrorist, 
not subversive, not----
    Mr. Mitchell. I am going to resist the temptation, sir, to 
speak on behalf of those governments.
    I would just say from our perspective we make it clear all 
the way up to the level of the President not only on Hezbollah 
but on the broader Iran problem that there can't only be an 
American solution to this, long term--that we have to have 
greater European participation, whether it's plugging the 
gaps----
    Mr. Perry. So other than the kind rhetoric and hoping 
they'll come to the table on this, is there anything the United 
States is doing from the diplomatic standpoint to kind of urge 
them out, so to speak?
    Is there--I get the carrot. Where's the stick? Is there a 
stick?
    Mr. Satterfield. This government has been in contact 
continuously with our European partners in Paris and elsewhere. 
I participated in a number of these talks.
    We have a more extensive focused dialogue on the issue of 
Iran and Hezbollah, the IRGC, than at any point in memory and I 
have been part of this discussion for the last quarter century.
    Mr. Perry. I appreciate it and I am sure you do.
    Mr. Satterfield. Now, what have we done? Despite continued 
resistance at a political level for making the same bright line 
co-identification of political and military parts of Hezbollah 
that the EU maintains, we have achieved much more in the way of 
actual designation and sanctioning by critical European 
partners than we have done in the course of the last many 
years.
    Is it enough? No. Is it progress? Yes, it is.
    Mr. Perry. Well, I will just tell you that at least from 
this point on the dais here there's not enough progress fast 
enough. I know we are impatient. I know it's hard.
    But you must have success in this regard. We cannot--and 
please know that this is a point of concern and when you come 
back we are going to continue to----
    Mr. Satterfield. We agree.
    Mr. Perry. Let me ask one more question with the chairman's 
indulgence regarding the train and equip fund.
    It's my understanding that in 2015 for Iraq $1.5 billion, 
2016 $715 million. I ask this question in the context of I feel 
like the American taxpayer is now left in the position to train 
and equip the IRGC and the Quds Force operating individually as 
units and individuals that have infiltrated the Iraqi army.
    Local municipal elections are looming and I am wondering 
what the number is that we are currently spending on train and 
equip funding in Iraq and what's going to be done about that?
    Or do you disagree that we are not training and equipping 
IRGC elements and individuals that are operating in uniform in 
Iraq?
    Mr. Satterfield. Congressman I strongly disagree with the 
premise that our support for the Iraqi armed forces is support 
for the IRGC or the Shi'a PMF--the Popular Mobilization 
Forces--some of which are affiliated with Iran.
    We have supported a legitimate institution of the Iraqi 
state that has performed exceptionally well in the fight 
against ISIS and in the reclaiming and holding of Iraqi 
territory.
    Now, the issue of whether there are individuals who are 
present within the Iraqi security forces whose allegiance may 
lie to the PMF, undoubtedly there are.
    But there is a confabulation between that reality and 
saying we are facilitating the IRGC or the PMF. Absolutely not. 
It's not----
    Mr. Perry. So I don't want to be hyper critical and I am 
concerned not only for our national security but for the 
taxpayers and the fidelity and the future of Iraq.
    Are you willing to say that there are no IRGC forces using 
any United States-provided military equipment in Iraq right 
now?
    Mr. Satterfield. I will review the record. But to my 
knowledge, there is no provision of U.S. military equipment or 
funding to the IRGC.
    Mr. Perry. I know it's not the IRGC----
    Chairman Royce. Here's a strategy. How about having the 
Ambassador--Ambassador, if you will review the record and get 
back to General Scott Perry on the issue.
    Mr. Perry. Thank you, sir. Happy to--thank you, Chairman.
    Chairman Royce. Thank you.
    Now we go to David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Like many of my colleagues, I am extremely concerned about 
the implications of Turkish incursions into Syria, particularly 
Afrin. I requested a classified member-level briefing from your 
offices on the situation on February 6th. That was 10 weeks 
ago.
    And the briefing still has not happened it's been cancelled 
again. I know there's a briefing after this hearing on the 
entire region. But I want to start by saying how disappointed I 
am that it's taken 10 weeks and I still don't have a hearing.
    So I would like a commitment from both of you that you will 
schedule a classified briefing for members on the situation in 
Afrin in the very near future.
    That's a yes? Thank you.
    Could you speak to how the Turkish incursion has affected 
the U.S. coalition's fight against ISIS? Obviously, Turkey and 
the U.S. coalition have different priorities in Syria and how 
is the U.S. supporting our partners on the ground, which 
include both the Kurdish YPG and our NATO ally, Turkey.
    Because I am hearing a lot of concern from the Kurdish 
community that they feel that the U.S. has abandoned them after 
they played such an important role in the fight against ISIS.
    Mr. Mitchell. Thank you, sir, for that question and I can 
assure you we will follow up on that request, and I apologize 
on behalf of our bureau that that hasn't happened yet.
    It's a crucial matter. I will take the olive branch part of 
your question and defer to my colleague on the Kurdish 
question.
    I will just keep it simple and say that Operation Olive 
Branch has very much complicated the defeat ISIS campaign by 
creating a demand signal that draws fighters from the Euphrates 
Valley toward Afrin.
    Our focus has been to call on the Turks to show restraint 
and address the humanitarian crises. I have led the U.S. 
delegation in most of those recent conversations but also to 
create a sequenced approach to some of the areas that the 
Turkish Government has concerns about and to try where possible 
to balance the Turkish and Kurdish equities on this.
    David can say a word about the Kurdish element.
    Mr. Satterfield. The situation in north and northeast Syria 
has recently stabilized. We have seen no further movement of 
Turkish forces beyond Afrin.
    Our dialogue with the Syrian Democratic Forces, the SDF, is 
deep, extraordinary and at senior levels and that dialogue is 
continuing at a senior level, literally as we meet here today.
    We believe that it is possible to continue the fight 
against ISIS with the support and help of the SDF. That, of 
course, requires not just their commitment to us but our 
commitment to continue to work with them.
    We understand that very well.
    Mr. Cicilline. Thank you. Thank you, and I look forward to 
the classified briefing.
    Ambassador Satterfield, are you aware of any evidence that 
Iran has violated the terms of the JCPOA?
    Mr. Satterfield. It is the assessment of the IAEA that Iran 
remains in essential compliance with the provisions of the----
    Mr. Cicilline. Okay. Thank you. You talked about the 
ongoing discussions with our European partners.
    Is there a plan for that moment when the sanctions waiver 
is required to be addressed by the President that if that 
doesn't happen is there a plan in place if--in other words, is 
the President willing to sign the waiver so that this process 
can play out or is it the May deadline and is there a 
contingency?
    Mr. Satterfield. The administration is prepared for a 
number of options depending on the circumstances, including the 
outcome of discussions with the E3, and whatever decision the 
President may at the time take. Yes, sir.
    Mr. Cicilline. Okay. So if the negotiations are not 
complete, there's no assurance that the President is going to 
issue the waiver and that could be the end of the agreement?
    Mr. Satterfield. Under no circumstances would I prejudge or 
circumscribe the President's options.
    Mr. Cicilline. Okay. Okay.
    And I am just turning for a moment now to Egypt. In your 
view, does Egypt's new NGO law violate the Brown back amendment 
by giving the Egyptian Government veto power over U.S.-funded 
democracy programs?
    Our ability to operate many assistance programs in Egypt 
has been severely limited since the change in government in 
2011 with this new law in place.
    What kind of economic development or democracy program is 
even possible for the United States assistance to support in 
Egypt and do you believe that the repeal of this NGO law should 
be a prerequisite for the United States providing continued 
economic aid to Egypt?
    Mr. Satterfield. Congressman, there are provisions of that 
law which, if executed, would indeed violate U.S. statute, no 
question about that.
    With respect to our demands of the Government of Egypt, 
they've been very clear. Our strong recommendation and one of 
the basis for Secretary Tillerson's withholding of the $195 
million was exactly the issue of a pledge to not implement 
these offending provisions of that law.
    Mr. Cicilline. Great. And my final question for both of you 
really, do you think that it is inconsistent--or I am sorry, do 
you think that it is consistent policy that we say that we must 
intervene militarily in Syria, as we've said to the world, 
because of our grave concerns of the humanitarian situation for 
Syrians facing chemical attacks by their own government, and at 
the same time to severely restrict refugees from the region 
that we have only allowed 11 Syrian refugees into the United 
States in 2018?
    Do you see that as a consistent position and doesn't it 
present a challenge to the world to take us seriously?
    Mr. Satterfield. The issue of the administration's position 
with respect with national security in relation to refugee 
admission is one that we are happy to take back for response to 
you.
    Mr. Cicilline. So you agree it's inexplicable and difficult 
to defend?
    Mr. Satterfield. No. I am simply saying this falls outside 
my area of responsibility.
    Mr. Cicilline. Yes. I mean, you would say not consistent to 
say we are so worried about the children and women in Syria 
that we have to intervene militarily but, by the way, the 
administration has severely restricted the admission of those 
very same women and children to the United States and in fact 
only 11 Syrian refugees have come to the United States this 
year.
    Mr. Satterfield. Congressman, I understand your question. 
Our focus----
    Mr. Cicilline. I look forward to the answer.
    Mr. Satterfield. Our focus in Syria is CW use and ISIS.
    Chairman Royce. We go to Ann Wagner of Missouri.
    Mrs. Wagner. I thank you, Mr. Chairman, for organizing this 
hearing and I thank you to our witnesses for their service.
    The violent Assad regime in Syria continues to perpetuate 
crimes against humanity, aided and abetted by a revisionist 
Iran.
    Amid regional instability, Hezbollah, Hamas, al-Qaeda, the 
Islamic State, and other terrorist groups operate with 
impunity.
    The United States must continue to exercise leadership in 
holding bad actors accountable for committing human rights 
abuses and for their terrorist activities.
    Dr. Mitchell, you have been outspoken in your support for 
NATO. Would you advocate for a similar arrangement in the 
Middle East?
    Mr. Mitchell. Thank you for the question, ma'am.
    I consider it beyond the remit of my duties to speculate 
much on security arrangements among allies in the Middle East 
on the model of NATO.
    I will say that there are a number of states in the region 
who are threatened by Iran in particular and I think we have 
both an opportunity and responsibility in U.S. diplomacy to 
strengthen our security arrangements with those states.
    Mrs. Wagner. You have argued for deterrence by denial 
rather than deterrence by punishment. As I understand it, this 
means shoring up defensive forces to discourage adversaries 
rather than relying on threats.
    I agree that we may need to tweak our strategic calculus. 
Bad actors like Syria and Iran have unquestionably undermined 
the United States' traditional modes of deterrence.
    Can you explain what deterrence by denial would look like 
in the Middle East?
    Mr. Mitchell. Ma'am, I am so flattered that you have read 
my past work. I will point out that this was written in a 
previous life, before I was in this job, and was written with 
regards to the Baltic States specifically.
    I will say, broadly, from the position that I hold now that 
I think a strong American deterrence in many parts of the world 
is really the essential fabric of stability.
    I think strengthening that deterrence in Europe and in NATO 
and in northeastern Europe has a particular set of requirements 
at present.
    I think it's a very different situation in the Middle East 
and I would defer to Ambassador Satterfield on the specifics of 
deterrence there.
    Mrs. Wagner. Ambassador.
    Mr. Satterfield. We are looking at what more can be done by 
individual states and in a collective sense by parties in the 
Middle East including those parties who have considerable 
military resources and capabilities of their own.
    The President has made very clear that while we are 
shouldering the responsibility for the destruction of the 
remnants of the so-called caliphate of ISIS that in the period 
beyond the maintenance of that destruction needs to fall 
squarely on the shoulders of those in the region and we are 
exploring right now very actively whether and how a construct 
can be made, what we've turned in past years a regional 
security architecture that has a real ability to step in and 
take on responsibilities which we do not believe the U.S. 
should have to have indefinitely.
    Mrs. Wagner. Well, I appreciate that, and to that point, I 
know that the Ambassador to the United States relies on 
regional partners to counter Iran's malign influence.
    Traditionally, the United States has worked closely with 
members of the Gulf Cooperation Council, or GCC. However, GCC 
member states--Iran, Saudi Arabia, and the United Arab 
Emirates--have cut ties with Qatar, which they maintain 
secretly supports Iran.
    The United States postponed a planned summit with Gulf 
leaders until September, I believe, of 2018. Do U.S. officials 
anticipate a resolution to the Qatar diplomatic crisis before 
the summit?
    Are we doing anything as the United States to try and deal 
with this rift?
    Mr. Satterfield. The President of the United States and 
every official in government has been focused on the issue of 
closing this rift since it occurred.
    The President has directly engaged with the heads of state 
and government of all of the countries involved on both sides 
of this divide, and his message has been exceedingly clear from 
the beginning and it has been reiterated in his recent personal 
and phone contacts with that leadership, which is it is high 
time this get resolved.
    We face a common challenge from Iran. We face a common 
challenge from other foes in the region and beyond. This rift 
serves their interests, not ours. It needs to be mended and we 
hope very much that the states act on this.
    Mrs. Wagner. I thank the witnesses for the testimony, and 
yes, Dr. Mitchell, I do my homework.
    And I thank the chairman again for his timeliness of 
putting this hearing together. I thank the witnesses for their 
tremendous service, and I yield back.
    Chairman Royce. We go to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chairman. Thank you to the 
witnesses for your service.
    And I know we'll all probably agree that the Syrian civil 
war has been one of the greatest humanitarian crises of our 
time. Over 500 million dead at the hands of Assad, millions 
fleeing their homes trying to escape to other countries with 
great impact to those countries.
    And I think it's fair to say that there's been a lot of 
dereliction on, I would say, on the world, maybe because--not 
knowing really what to do.
    So you can point fingers in a lot of different places. But 
since we are here now, I am going to talk about this 
administration because I think Mr. Trump has sort of a 
whackadoo behavior, how he goes about all these things.
    So the President acts--I don't whether it's impulsively or 
emotionally or correctly but he--I think all of us, when we see 
the chemical warfare on Assad on human beings it's horrendous.
    And so I am not critical of the President feeling this is 
horrendous action, but what I don't understand is this 
President only allowed 11 Syrian refugees into this country 
last year compared to 15,000 in 2016.
    So my question is, where is the humanity in that? Then he 
can't decide where he's pulling--he's staying in Syria, out 
Syria. One week he's pulling out of Syria and then the next 
week we have these air strikes.
    So I think this inconsistency is not very helpful. One 
night of air strikes is, as I think many of my colleagues have 
said, is not a substitute for a comprehensive strategy, which 
should include robust political and diplomatic engagement.
    And one of my questions I also have is was the State 
Department consulted at all and involved in this decision on 
the air strikes.
    I am the mother of a United States war veteran who went to 
two wars. I came to this Congress purposely because I wanted to 
weigh in on decisions of war and peace.
    And so I can tell you that, in my humble opinion, I think 
the President should have come to this Congress for a military 
authorization before these air strikes, because it's not like 
it was a surprise.
    The President tweeted this out days before. So, I mean, it 
wasn't exactly that he surprised anybody with these air 
strikes, and I think it's a dangerous precedent that he is 
setting.
    So just, if I come back on the question number one is was 
the State Department consulted on these attacks? Why are we not 
allowing refugees?
    Are we going to allow some more refugees and, if you know, 
could you tell me what the cost of these air strikes were?
    Mr. Satterfield. Yes. The State Department was involved 
throughout the deliberative process that led to this decision, 
as we were in all prior considerations of use of military force 
in Syria.
    Ms. Frankel. May I ask you something? Was there any 
recommendation from the State Department or any member of the 
administration that you know that the President come to 
Congress for an authorization before the strikes?
    Mr. Satterfield. I can comment on the authorities that were 
used, not on the deliberative process, and it was Article 2 of 
the Constitution that the President relied upon.
    With respect to the refugee question, which you and your 
colleague have raised, that's outside my area of authority but 
we will provide you with a response from the State Department 
on that.
    Ms. Frankel. Do you know the cost of the air strikes, by 
any chance?
    Mr. Satterfield. That question has been posed to the 
Department of Defense. We will refer that question to OSD, the 
Office of the Secretary.
    Ms. Frankel. Dr. Mitchell, did you want to respond to any 
of those questions?
    Mr. Mitchell. I would only add that I appreciate the 
questions and we are happy to take a closer look and get back 
to you in written form.
    Ms. Frankel. And one more quick question. Why did the 
President change his mind on these sanctions against Russia?
    Mr. Mitchell. There has been, and continues to be, a 
discussion about future steps with regards to sanctions on 
Russia. That's an ongoing process, and I would refer you to the 
White House for any more recent developments.
    Ms. Frankel. Okay. Well, I guess we are not going to get an 
answer on that.
    Well, anyway, thank you very much for being here. I yield 
back.
    Chairman Royce. Thank you.
    We go to Adam Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thank you both 
for being here. It's very appreciated.
    You guys have a lot of tough work to do and you have done a 
lot of great work. I've always said when it comes to state-
related issues, you never know what you are able to mitigate, 
the conflicts you were able to stop that never happened, and 
it's hard to put a price on that. So we appreciate all the hard 
work.
    Obviously, Syria has been a failed policy since the last 
administration. In fact, the failure to follow through on the 
2013 red line had massive implications not just in the Middle 
East but all over the world.
    I think there's no doubt about it. You look at the foreign 
policy challenges we had before 2013 and the foreign policies 
we have post-2013 and there's a direct correlation to when bad 
actors felt like they could challenge the United States of 
America.
    And, frankly, we said a lot of good words for a long time 
but followed through with no action.
    Now, it's nice to see a President that's willing to follow 
through with action. I think the strikes in Syria were correct.
    The American people, according to a poll today by two-to-
one agreed that they were the correct thing to do, and I also 
don't think the President needed to come to Congress for every 
military move does require--there's not 535 Commanders in 
Chief. There's one.
    Our job is to declare if a state of war exists and then to 
put the funding in to do that to follow through on that war.
    The President has a lot of authority as envisioned and 
written by the Constitution.
    But having served in the Air Force and still continuing to 
serve, Syria's been one of my big concerns as I've gotten to 
Congress. What I worry about is a lack of long-term strategy in 
Syria.
    I think holding strong that chemical weapons have no place 
is a really good thing to do. But I think on the broader level 
the question is what is going to be the future of Syria.
    And I think when we talk about the destruction of ISIS in 
the Middle East I don't think these two exist in a vacuum. I 
think part of the reason ISIS has been able to grow and thrive 
is because of the existence of a terrible dictator that 
basically creates an environment where somebody feels the only 
option they have to turn to is to a terrorist group because 
nobody else is coming to help them and the Assad family has 
been the biggest enemy of all time and you find yourself in 
that process radicalized.
    And so when we fight this generational war on terror, we 
have to keep in mind that it's the seven and the 8-year-olds 
that are in these refugee camps right now that are either going 
to be the people that reject Islam or reject ISIS within Islam 
or they are going to be the people that, frankly, propagate 
ISIS or ISIS 2 or al-Qaeda 3 or whatever that next generation 
is.
    So you cannot look at Syria and the challenges in Syria in 
a vacuum in isolation of the fight against ISIS. I think they 
are together.
    But Ambassador Satterfield, last month the administration 
ordered the State Department to freeze $200 million in 
stabilization funds that would enable those displaced by the 
conflict to return to their homes, which is exactly what I 
think is the opposite of what needs to happen to create a 
better environment.
    Early recovery efforts and the restoration of basic 
services and security are critical elements to establishing 
inclusive local governance outside of Assad's control.
    What are the specific accounts that have been frozen--
economic support fund or nonproliferation, antiterrorism, or 
any related programs.
    Mr. Satterfield. Representative, we can get back to you 
with the specifics in response for that last part of your 
question.
    What I will say in general over the funding that was 
suspended, we are reviewing now carefully with the White House, 
within the government, how best to move forward with respect to 
expenditure of taxpayer moneys in Syria.
    Mr. Kinzinger. If you could get back to me with the first 
part, that would be great.
    And what evidence have you seen of partner nations making 
assurances that no stabilization or reconstruction assistance 
will benefit the Assad regime?
    Mr. Satterfield. In September of last year at the United 
Nations, then Secretary Tillerson chaired a meeting of the so-
called like-minded countries on Syria, a broad representative 
group of Arab and non-Arab countries, all of whom supported one 
fundamental principle--there should be no reconstruction 
assistance provided to the Assad regime or areas controlled by 
the Assad regime, minus significant progress on the U.N.-led 
Geneva political process. That progress has not taken place.
    Mr. Kinzinger. Right. And let me ask about Iraq 
specifically.
    I am a veteran of that war. A lot of American blood, 
treasure, toil went into bringing a free Iraq. I believe, as 
President Obama said, we did leave behind a free and fair Iraq 
and, unfortunately, we left them behind and now we have the 
challenges we have as we are back there again.
    One of my concerns is we have an election in a few weeks in 
Iraq. Can you talk about what you have seen, either of you, in 
terms of Iranian influence and how to push back against that?
    Because as somebody that was part of, frankly, fighting 
Iranian influence in Iraq it's extremely concerning.
    Mr. Satterfield. We can better address that question in 
another setting. Suffice it to say we believe there is a 
vigorous and truly democratic political debate in process 
underway in Iraq. But the specifics of your question in another 
closed setting can be best addressed.
    Mr. Kinzinger. Understood.
    Do you have anything to add, Dr. Mitchell, to any of that?
    Mr. Mitchell. No. Unfortunately, I agree with much of what 
you have said but most of what you have asked falls under Near 
East Bureau and not EUR.
    Mr. Kinzinger. Okay. You get away with that one, and I 
appreciate it.
    Mr. Chairman, I yield back. Thank you all for being here.
    Chairman Royce. Thank you.
    Norma Torres of California.
    Mrs. Torres. Thank you, Mr. Chairman.
    Ambassador, I too want to associate myself with some of the 
comments that my colleagues on this side have stated, regarding 
that we need specific actions that you plan to take and 
specific outcomes that you expect to see as in regards to the 
forces in Syria. I would really hope that you can follow up.
    Like many of my colleagues, I am very concerned. Iran is 
provoking Israel into conflict in Syria. Iran is intent on 
building a permanent presence inside Syria.
    And it's shocking that the Trump administration has failed 
to articulate that strategy to deal with Iran's growing 
presence in Syria.
    While the most recent missile attacks on Syria and the area 
where they have the chemical weapons has been applauded by 
many, I am very concerned at our lack of care for the children 
that have been injured.
    And I understand that you have stated already that it's not 
within your jurisdiction to deal with refugees. But I am 
curious to know if you have given an opinion to that cause 
since to date this year it is my understanding that we've only 
received or allowed 11 Syrian refugees to this country.
    Mr. Satterfield. Ms. Torres, the best resolution to the 
suffering of the Syrian people, whether we are speaking about 
those who have been displaced internally and externally or----
    Mrs. Torres. I am sorry. I am talking about the injured 
children that need medical assistance and have been orphaned.
    Mr. Satterfield. Or with respect to individual cases of 
suffering and hardship is to end this war, to end the brutality 
of the Assad regime.
    That requires a political process, and while we may like to 
believe that the U.S. simply saying something or deploying U.S. 
soldiers will fix it, the issue is far more complex than that. 
It requires a comprehensive international approach and that is 
what we have been very active in trying to generate.
    But we have been frustrated. We have been frustrated by 
Russian efforts, which have blocked every move to place Assad 
and his regime before their responsibilities--every effort to 
move them to Geneva, and we continue to engage.
    We continue to hope that through our engagement, through 
messages both positive and negative, Moscow recognizes it ought 
to be in their interest to move this forward.
    I know the images are extraordinarily painful they are. We 
are trying to address them. But at the end, they are best 
addressed through changing the character of Syria itself, 
allowing these people to move forward with lives in peace, 
security, and stability.
    Mrs. Torres. So what is our strategy as it relates to 
Russia? The White House, from day to day, from tweet to tweet, 
you know, they seem to have a different opinion.
    I am concerned as to what does that do for your long-term 
planning strategy.
    Mr. Mitchell. Russia's behavior internationally is very 
concerning. I agree with the premise of your question.
    I would say that this administration takes that seriously 
in all of its forms, in multiple regions.
    Our strategy, broadly, has consisted of two planks. The 
first is cost and position, so to raise the cost of an 
aggressive foreign policy until the Russian Government decides 
that the cost benefit analysis does not support further 
aggression. And we've done that through a variety of tools, 
from the executive branch, tools that were provided to us by 
Congress.
    And the second plank has been to keep channels of dialogue 
open where possible. The Russians very often do not want to use 
those channels.
    We have diplomatic and military channels on Syria, on 
Ukraine, in a number of fields related to strategic stability.
    So the strategy has been to increase the pressure and point 
the way to a door for dialogue. At the end of the day, the 
responsibility rests with the Russian Government for whether or 
not they choose to embrace those opportunities for dialogue.
    They have not embraced those opportunities and so we will 
continue to impose costs until they do.
    Mrs. Torres. So how have we increased the pressure on 
Russia lately?
    Mr. Mitchell. Well, in the period since January of last 
year, this administration has brought forth sanctions against 
189 individuals and entities in Russia. We presided over----
    Mrs. Torres. My time has expired. It's my understanding, 
though, that most recently the President has removed some of 
those sanctions. So I am going to have to----
    Mr. Mitchell. I am sorry. What's the question?
    Mrs. Torres. I am going to have to yield back. My time has 
expired.
    Chairman Royce. I thank the gentlelady for yielding back.
    We go to Lee Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman.
    Ambassador Satterfield, it's been asked of you, but just 
to--I don't want to make any bad assumptions so I will just ask 
again. Has Iran violated the letter of the JCPOA?
    Mr. Satterfield. The IAEA has not found significant 
violations----
    Mr. Zeldin. I am not asking the IAEA. I am asking you.
    Mr. Satterfield. That is what we rely upon. The IAEA has 
not found significant violations.
    Mr. Zeldin. So is it--is it the State Department's position 
that Iran has not violated the letter of the JCPOA?
    Mr. Satterfield. That is the judgement of the IAEA, upon--
--
    Mr. Zeldin. I am not asking the IAEA. I am asking you, sir.
    Mr. Satterfield. I've responded, sir.
    Mr. Zeldin. Okay. Does Annex 1, paragraph 61 of the JCPOA 
state, ``Iran will only engage in production of centrifuges to 
meet the enrichment R&D requirements?'' Are you familiar with 
that?
    Mr. Satterfield. I would have to respond in formal fashion 
to that.
    Mr. Zeldin. Okay. Well, formally, that is what that Annex 1 
Paragraph 61 states. Is it true that Iran has acquired more 
than the necessary amount of IR-8 centrifuge rotor assemblies 
for R&D purposes with 16 times more capacity than the IR-1 to 
enrich uranium?
    Mr. Satterfield. Again, I would have to respond in a formal 
written----
    Mr. Zeldin. You could respond right now, sir.
    Mr. Satterfield. I would have to consult. I am not a 
technical expert.
    Mr. Zeldin. I thought you were the Acting Secretary for----
    Mr. Satterfield. I am, sir. But those questions are highly 
technical and they demand a very technical and specific 
response, which we will provide.
    Mr. Zeldin. As part of the JCPOA, an enrichment, research, 
and development plan was submitted to the IAEA that permitted, 
roughly, 10 IR-6 centrifuges.
    Are you aware that Iran has assembled 13 to 15 IR-6 
centrifuges which should have been limited or destroyed under 
this plan?
    Mr. Satterfield. Representative, all questions of this 
character can be responded to in the appropriate level of 
classification in writing.
    Mr. Zeldin. Well, but you're stating that Iran has not 
violated the letter of the deal. So what I am going to do right 
now is go through all the different ways Iran is violating the 
letter of the deal.
    Is it your position that you're not going to respond with 
regards to any of the ways that Iran has violated the letter of 
the deal?
    Mr. Satterfield. These technical questions will require a 
sufficiently classified written response.
    Mr. Zeldin. Under Annex 1 paragraph 76 of the JCPOA, the 
IAEA can request access to military locations such as Parchin 
to verify compliance. Is that right?
    Mr. Satterfield. Representative, my response is the same to 
all questions at this time.
    Mr. Zeldin. It's a technical question. Is your position you 
can't tell me whether or not the JCPOA grants access to Iran's 
military sites for inspection for verification?
    Mr. Satterfield. It does, sir.
    Mr. Zeldin. It does state that?
    Mr. Satterfield. That is part of the JCPOA.
    Mr. Zeldin. Correct. Okay. So you're able to answer that.
    Now, has it not been crystal clear that it's Iran's 
position both before, during, and after the JCPOA was finalized 
that they will not grant any access to their military sites?
    Mr. Satterfield. I will respond to that question in 
writing.
    Mr. Zeldin. You can't respond to that now?
    Mr. Satterfield. No, I cannot.
    Mr. Zeldin. I mean, Rohani hasn't had a problem saying this 
over video. I don't know why that requires a classification. I 
mean, it is well known open-sourced information Rohani has made 
crystal clear that we do not have access to their military 
sites.
    Mr. Satterfield. There is much well-known open-sourced 
material that is also not correct or is nuanced. I will provide 
a detailed response from appropriate U.S. Government agencies 
to all of these questions.
    Mr. Zeldin. Has Iran acquired more heavy water than you're 
allowed under the JCPOA?
    Mr. Satterfield. Same response, sir.
    Mr. Zeldin. What's the response?
    Mr. Satterfield. We will provide a detailed response in an 
appropriate fashion.
    Mr. Zeldin. See, here's the problem. You have no problem 
coming before Congress and others will come before Congress 
saying in no uncertain terms Iran has not violated the letter 
of the JCPOA.
    But then when you're asked questions about all the 
different ways Iran has violated the letter of the JCPOA, you 
have to respond in writing or it's a technical question that 
someone else's expertise--you don't have the expertise to 
engage in any answers with regards to ways that Iran is 
violating the letter of the JCPOA.
    Yet, you do have the expertise to come to Congress and say 
they are not violating the letter of the JCPOA and you do have 
the expertise to come before Congress and explain the 
justification for your position.
    Yet, when asked about all the different ways--Iran 
collecting more IR-6 rotor assemblies than they are allowed to, 
assembling more IR-8 rotor assemblies than they are allowed 
to--the centrifuges, to deny access to their military sites, to 
collect more heavy water than they are permitted to.
    And that list goes on. When we went to Parchin and we found 
nuclear particles that we wanted to follow up on, Iran's new 
position was, you can't visit Parchin. So we were not able to 
inspect with regards to those particles that were discovered.
    So if you do not have the technical capabilities to answer 
any questions with regard to all the known specifics of how 
Iran is violating the letter of the deal, then we should not 
have one witness after another coming before this committee and 
others making the flat-out statement that Iran is not violating 
the letter of the JCPOA because that has consequences.
    Mr. Satterfield. For the sake of the record, Congressman, 
my comment was the IAEA has in its most recent reporting not 
found significant violations of the provision.
    Mr. Zeldin. And until the IAEA comes before this 
committee--and if they do come before the committee I will be 
happy to ask the same exact questions--but you're here 
representing the United States State Department and I am asking 
you about different specific questions.
    Mr. Satterfield. And I've answered we will provide you 
detailed answers to all of those questions.
    Mr. Zeldin. I yield back.
    Chairman Royce. We go now to Brad Schneider of Illinois.
    Mr. Schneider. Thank you, and I want to thank the chairman 
and the ranking member for having this hearing. I want to thank 
the witnesses for your service to our country and your patience 
today and staying to the end.
    Tonight in Israel, in fact, with the time change, as we are 
speaking this moment, Israelis are celebrating Independence 
Day, marking the 70th anniversary of the birth of the state.
    Seventy years ago when Israel declared its independence, 
the United States was the first nation in the entire world to 
recognize the new state.
    But there were five armies from five nations--Arab states--
who immediately attacked--Arab states of Egypt, Jordan, 
Lebanon, Syria, and Iraq.
    Today, Israel has peace treaties with Egypt and Jordan. 
Today, Iran controls, effectively, Lebanon, Syria, and Iraq.
    Yesterday, the Israeli Government released a map locating 
five Iranian airbases in Syria--two in the south near Damascus, 
one in the north--one in the east, one in the northwest, and 
one in the center of the country, T-4.
    In February, T-4 was the base from which Iran launched a 
drone to attack Israel. Israel responded by destroying some of 
the base and lost a jet and then had to go in and take out much 
of the Syrian air defenses.
    Over the past weekend, or April 8th, rather, Israel again 
struck at T-4, taking out Iranian weapons, and it was announced 
yesterday that they believe that Iran was installing advanced 
sophisticated air defense systems.
    Some of my concern--just quoting a couple of article 
headlines--Business Insider yesterday noted that Israeli 
intelligence reportedly said Trump's Syria strike failed, 
didn't take out much of anything. That's a quote from the 
headline.
    Times of Israel on April 14th said Israel fears Trump may 
see job as done in Syria--leave Israel alone to face Iran.
    So my question for you today, as we sit here--and I've 
asked this question of others every chance I get--what 
specifically is the United States strategy in ensuring that 
Iran does not get a permanent presence in Syria to threaten our 
allies, Israel, and others. What are we doing--what more can we 
be doing?
    Mr. Satterfield. We, certainly, are concerned with the 
threat which Iran presents in Syria and through Syria to 
Lebanon, to Israel, and to our other allies and partners in the 
region and beyond.
    Our strategy in working with Israel, with Jordan, with the 
Gulf States, with all the countries of the region and the 
broader international community is to deny to Iran the ability 
to proliferate in the fashion that it does into and through 
Syria.
    It's our work with the Iraqi armed forces and the Iraqi 
Government on the border. It is our work in the northeast with 
our own forces and our work, more broadly, with the 
international community to deny the resources and support which 
Iran and the Revolutionary Guard Corps depend upon for this 
very threatening activity.
    But I have to challenge the assertion in the opening part 
of your remarks that Iraq and Lebanon are controlled by Iran. 
They are not. They are both independent states.
    Mr. Schneider. It's hard to say that Lebanon is independent 
when it includes in its government Hezbollah, and Hezbollah has 
150,000 rockets increasingly more accurate, increasingly more 
powerful delivered by Iran.
    Iran is developing indigenous weapons manufacturing 
capability not just in Lebanon but in Syria. Iran has five 
permanent air bases in Syria.
    It's hard to say that, A, what we are doing is working if 
Iran is increasing its malign influence in the region and I am 
having a hard time understanding what specifically we are doing 
to push back against Iran's progress.
    Mr. Satterfield. We are working on Iran's proliferation, 
the sources of that proliferation, its ability to conduct the 
physical movements of materiel throughout the region and not 
just in Syria or in Lebanon.
    And in all of this we are partnered very closely with the 
Government of Israel as we are with other governments.
    Mr. Schneider. But when the President of the United States 
said couple weeks ago within 6 months U.S. troops are going to 
be out of Iran, we are washing our hands, what signal does that 
send to all of our allies in the region?
    And as I noted in some of the headlines, Israel is 
increasingly concerned that they are going to be left alone to 
push back against Iran's malign influence on its borders.
    Mr. Satterfield. The President has made clear, Secretary 
Mattis, and Chairman Dunford have made clear the primary 
purpose of our military presence in Syria is the defeat of ISIS 
and the caliphate.
    We look to other diplomatic, economic, and cooperative 
measures with Israel, with other states in the region to 
achieve these broader goals.
    Mr. Schneider. I am running out of time. A quick question. 
I request a quick response.
    The strike on the three Syrian chemical weapon sites--were 
they a part of a greater strategy or merely a punitive strike 
for Syria's chemical weapons?
    Mr. Satterfield. The President has made clear--the 
Department of Defense and other spokesmen for the U.S. 
Government have made clear they were aimed at both responding 
to and deterring the use of chemical weapons both in Syria and 
more broadly.
    Mr. Schneider. But is that a part of our broader strategy 
in the region and----
    Mr. Satterfield. It's an international strategy, sir.
    Mr. Schneider. And I believe that we have to do all that we 
can. We have a moral responsibility to do all that we can to 
make sure that not just Syria but the world understands 
chemical weapons.
    Mr. Satterfield. It's a global--it's a global----
    Mr. Schneider. But that's distinct from the strategy of 
pushing back against Iran's malign influence in the region.
    Mr. Satterfield. It is a separate issue entirely.
    Mr. Schneider. And so that's why I have my concern.
    I am over time. I thank the chairman for the indulgence. I 
do want to associate myself with the remarks of the chairman 
and the ranking member, in particular with respect to the 
Caesar Syrian Protection Act, Russian sanction, filling the 
positions that we have at the State Department.
    It is unacceptable 15 months into this administration how 
many open positions remain, and in particular the importance of 
a robust investment of resources, energy, and money, and focus 
into diplomacy and development.
    Without those two, our defense requirements only grow. 
Thank you very much. I yield back.
    Chairman Royce. Thank you, Mr. Schneider.
    We now go to John Curtis of Utah.
    Mr. Curtis. Thank you, Mr. Chairman. My appreciation to 
these two witnesses for their endurance, for staff, and for 
yourself and ranking member. I have just a few brief questions. 
Thank you.
    There was an article at Reuters last week that Russia was 
supporting Assad through civilian aircraft. The House passed 
the Caesar bill and which would impose sanctions for this type 
of action.
    So my question is, realizing the bill has not made it 
through the Senate, are sanctions being considered for this, 
and could you speak to the importance of getting this bill 
through the Senate and how helpful that would be to the 
administration?
    Mr. Satterfield. With respect to any assistance being 
provided to Iran or the Assad regime, we are quite keen to use 
all existing authorities to address any states, any entities 
that may be involved and that certainly includes Russia.
    With respect to the Caesar bill, we would have to get back 
with a considered position on this, particularly with respect 
to the question you just posed.
    Mr. Curtis. Thank you.
    Let me ask you for a moment to consider a different 
audience. Consider my constituents back home who will hopefully 
be watching this and are struggling to understand war powers 
and perhaps if you could just take a minute and explain the 
difference between Article 2 and the AUMF and what was applied 
here in a way that they might be able to digest that.
    Mr. Satterfield. I will try to take that on. Volumes have 
been written on this topic----
    Mr. Curtis. Right.
    Mr. Satterfield [continuing]. Over the course of the last 
200 years.
    The Article 2 authority granted to the President by the 
Constitution as Commander in Chief is quite broad. There are 
requirements which follow upon use of that authority. That is, 
the White House must report use of forces to the Congress 
within a specified time limit.
    But the authority itself is constitutional and it is quite 
sweeping, and AUMF and in the case of Syria, Iraq--we typically 
deal with to extent AUMF--one from 2001, one from 2002--our 
focus on substance. They deal with certain specified entities 
or types, categories of threat. They are sometimes limited in 
time. These two were not, but they could be.
    So an AUMF is specific to purpose, often to the time they 
remain valid. The Article 2 authorities are not constrained by 
either of those considerations.
    Mr. Curtis. By way of clarification, I want to make clear 
that the strikes were based on Article 2. Is that correct?
    Mr. Satterfield. That's correct, sir.
    Mr. Curtis. Right. Help me and my constituents understand 
at what point we go past Article 2. We talked about if this 
happens again we'll be back with some type of--I don't want to 
say retaliation but some type of action, and how do we know 
where that fine line is?
    Mr. Satterfield. I am going to give you with some 
diffidence a non-lawyer's response to your question for the 
constituents back home, which is every President, every 
administration, in every instance where there is contemplation 
of the use of military force or forces must consider what the 
appropriate authority, Article 2--in extent, AUMF--soliciting 
from the Congress an explicit and new authorization should best 
be used, depending upon the circumstances, and it is very much 
circumstance condition-dependent.
    Mr. Curtis. And I am sure I don't need to define this, but 
let me, just for my own sake, say that there's, obviously, some 
urgency in Congress to be involved, balancing, very carefully 
with this concept of 535 generals, right, and appreciating any 
involvement in this--as we pass the line, right, in 
understanding that Congress is anxious to be supportive but 
also to be involved.
    Mr. Satterfield. Well understood.
    Mr. Curtis. Let me also ask some questions about our 
allies.
    I was pleased to hear that we were joined by two of our 
allies--the United Kingdom and France. I was pleased that 
others spoke up to support that but kind of the question in my 
mind why they weren't there to be a part of the strikes.
    Can you help me understand that process and how they are in 
or out?
    Mr. Mitchell. Thank you for that question.
    We have had ongoing consultations, certainly, with European 
allies and with Turkey for a very long time on Syria, broadly.
    There were consultations in the lead-up to the strikes, 
particularly with France and Britain; and the French and 
British, for geopolitical and historical reasons and reasons of 
national interest, chose to support us.
    There are certain constraints in the German system on legal 
constraints, political constraints, on the ability to 
participate directly in a strike.
    I was in Berlin in the lead-up to the strikes and I know 
that there were a lot of consultations internally. The Germans 
came out in their own system with the highest level of and most 
fulsome level of support they could provide.
    The Italians were supportive. Turkey was supportive. But I 
will just say that from our perspective at State Department, we 
were pleased with the level of engagement and material--not 
only support but in the case of France and Great Britain, this 
was leadership in showing the way toward both the need for the 
strikes and then taking action and engaging with us when we 
worked through that.
    Mr. Curtis. I apologize. I am out of time.
    Thank you, Mr. Chairman. I yield.
    Chairman Royce. Thank you.
    We go now to Adriano Espaillat from New York.
    Mr. Espaillat. Thank you, Mr. Chairman.
    I wanted to come in like Mariana Rivera and perhaps close 
the gate, right.
    Yes, it remains an essential axiom of U.S. interests to 
have Iran not obtain a nuclear weapon, and though the President 
continues to suggest terminating the Iran nuclear deal it is 
necessary to maintain it and strengthen it so that we can 
prevent Iran from obtaining a nuclear weapon so that we can 
further build upon diplomatic efforts to combat Iran's nuclear 
program and aggressive actions.
    Iran's malicious actions are not just confined to nuclear 
weapons. It supports the Houthis rebels in Yemen and poses a 
threat to the stability of that region and the continuation of 
this war has led to one of the largest humanitarian crises in 
the world.
    The U.S. has continued to aid Saudi Arabia in this conflict 
despite the heavy civilian casualties contributed by all sides 
in the conflict.
    I wanted to ask the first question regarding the JCPOA and 
the issues with the sunset provision. I know that the ballistic 
missile program and the human rights abuse issues are critical.
    But what do you see--do you see this agreement surviving 
past May 2018, Ambassador? Where do you see the JCPOA? Do you 
see it surviving or do you feel that the sunset provision is 
sort of like a line in the sand that will derail the entire 
agreement?
    Mr. Satterfield. The President has made very clear there 
are critical areas of the JCPOA and areas surrounding the 
JCPOA--missile and ballistic missile technology--that require 
addressing.
    We are working actively to succeed in that addressing of 
those defects. We hope very much that we achieve a success, but 
with respect to what happens on or around May 12th, that is a 
decision for the President which will be shaped by what in fact 
is the outcome of the discussions underway now.
    Mr. Espaillat. And where do you see our allies? Do they 
feel confident that in fact perhaps attacking the ballistic 
issue and the human rights issue without the--having a concrete 
agreement on the sunset--is that enough for them? Are they with 
us all the way on this or it's just--are they half stepping us?
    Mr. Satterfield. We are mid-stream, sir, in our 
conversations with the European allies about this, and the 
sense that I have from our engagements, at least with the 
European allies, is that there is a greater awareness of the 
extent of the Iranian challenge than there was in the past and 
there's a greater political willingness in the U.K., France, 
and Germany to take actions to address the shortcomings of 
JCPOA.
    Mr. Espaillat. Okay. On the second issue of Yemen, 
Ambassador, the Obama administration reduced the number of U.S. 
servicemen there, helping the coalition due to the concerns 
that I stipulated earlier--the humanitarian crisis that this 
coalition and others have helped create.
    Has this assessment changed under the current 
administration and if so what is the justification for such 
change?
    Mr. Satterfield. The administration is quite concerned with 
different aspects of the Yemen crisis. First is humanitarian. 
This is an extraordinarily large humanitarian disaster--one of 
the greatest man-made disasters in modern history.
    And while the coalition campaign is not the exclusive cause 
or sustainer of the crisis, the Houthis themselves bear very 
significant responsibility.
    The fact is we are associated with the Saudi-led campaign, 
not with the Houthis. We have engaged at the highest levels of 
the government, including the President repeatedly, to impress 
upon the governments involved in this campaign, led by Saudi 
Arabia that there might be every possible action taken first to 
maintain free and full access for humanitarian and commercial 
goods including fuel into Yemen, secondly, that the campaign 
directed with the purpose of bringing the Houthis to the 
negotiating table is not, in our view, a campaign that can 
succeed.
    Saudi Arabia has legitimate self-defense needs and 
requirements which do require military action. We work with 
them to help shape and support those actions in a way that 
mitigates or diminishes civilian casualties.
    But the campaign to force a political resolution is not one 
that we believe has a military calculus to it. It's political. 
It should lie in enabling the United Nations to move forward. 
We have the new representative of the United Nations for Yemen 
in Washington today, and we hope very much that his efforts can 
achieve success.
    Mr. Espaillat. And so why is the administration so far away 
from reaching the 45,000-person cap on refugees? If we have 
this issue of--not just in Yemen but across the region with so 
many refugees, why have we not carried our own load, as some of 
the European countries have done?
    Mr. Satterfield. That is an issue which involves various 
departments of the U.S. Government beyond the Department of 
State and broader security and policy concerns, Congressman.
    Mr. Espaillat. Thank you. Thank you, Ambassador.
    Thank you, Chairman.
    Chairman Royce. Thank you.
    And I want to remind committee members of the classified 
briefing we are holding on these issues immediately following 
the hearing and I invite them to join us in the SCIF.
    And with that, I want to thank the witnesses for appearing 
before our committee today. We very much appreciate your work 
on these critical issues and we look forward to greater 
consultation between the committee and the department in the 
weeks ahead on these issues.
    And we stand adjourned.
    [Whereupon, at 12:33 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
